<html>
<title> - EFFECTIVENESS OF THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
      EFFECTIVENESS OF THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2000

                               __________

                           Serial No. 106-234

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
   Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                        Robert A. Briggs, Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Charley Diaz, Congressional Fellow
                           Ryan McKee, Clerk



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2000....................................     1
Statement of:
    Forbes, Daniel, freelance journalist, Salon.com; David 
      Maklan, vice president, Westat, Inc.; and Robert Hornik, 
      professor, Annenberg School for Communication..............    78
    Jones, Renee, program director, Academy for Boys; Kevin, 
      young person, Maryland; Ibn Muhammad, young person, 
      Maryland; and Kati Stephenson, young person, Orlando, FL...   122
    McCaffrey, Barry R., Director, Office of National Drug 
      Control Policy.............................................    13
Letters, statements, etc., submitted for the record by:
    Evans, Kevin, young person, Maryland, prepared statement of..   132
    Forbes, Daniel, freelance journalist, Salon.com, prepared 
      statement of...............................................    84
    Jones, Renee, program director, Academy for Boys, prepared 
      statement of...............................................   126
    Maklan, David, vice president, Westat, Inc., prepared 
      statement of...............................................    97
    McCaffrey, Barry R., Director, Office of National Drug 
      Control Policy:
        Briefing charts..........................................    14
        Prepared statement of....................................    32
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     6
    Muhammad, Ibn, young person, Maryland, prepared statement of.   136



      EFFECTIVENESS OF THE NATIONAL YOUTH ANTI-DRUG MEDIA CAMPAIGN

                              ----------                              


                         TUESDAY, JULY 11, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:18 a.m., in 
room 2247, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Gilman, Cummings, Tierney, 
Mink, Schakowsky, Souder, Hutchinson, and Barr.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Charley Diaz, congressional fellow; Ryan McKee, clerk; 
and Jason Snyder, Kelly Bobo, and Lavron Penny, interns.
    Mr. Mica. I would call this hearing of the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources to order.
    This morning's hearing will focus on the subject of 
evaluating our National Youth Anti-Drug Media Campaign. We have 
three panels today. The order of business will be first, 
opening statements by Members and then we will turn to our 
panels. First we will have Director Barry R. McCaffrey, the 
head of our Office of National Drug Control Policy.
    We will go ahead and proceed because we do have a full 
morning here and we will be joined by other Members. We do have 
a full agenda.
    I will start with my opening statement.
    Today's hearing is the second in a series of oversight 
hearings by this subcommittee which has focused on examining 
our National Youth Anti-Drug Media Campaign. At a cost of 
nearly $1 billion over 5 years, with another $1 billion in 
matching contributions, the National Youth Anti-Drug Media 
Campaign is the largest government-sponsored, government-funded 
advertising campaign in U.S. history. As such, it is imperative 
that this program is administered effectively and also 
efficiently and, ultimately, that the campaign accomplishes its 
goal of reducing drug use among our young.
    The Office of National Drug Control Policy is responsible 
for the development, implementation and evaluation of the 
National Youth Anti-Drug Media Campaign. It is this 
subcommittee's responsibility to oversee their efforts. This 
subcommittee's investigative authority also extends to a host 
of other Federal departments and agencies involved in reducing 
illegal drug use in America.
    The predecessor to the current campaign was developed and 
run by the Partnership for A Drug Free America from 1987 to 
1997, free of charge to the taxpayers. For over a decade, the 
Partnership acquired donated air time from the big three 
television networks to disseminate anti-drug messages 
nationwide and ad companies donated the creative talent to 
develop and produce the ads. In 1991, the estimated value of 
these donations reached an impressive $350 million annually.
    The Partnership's experience has shown that when a strong 
anti-drug message is communicated nationwide, and our media 
exposure is maximized, drug use in America drops. Based on the 
National Household Survey data, illicit drug use declined some 
50 percent from 1985 to 1992, from about 12 percent to about 6 
percent of households.
    Unfortunately, due to increased competition resulting from 
industry deregulation in 1991, there was a dramatic decline in 
donated media time. During this time, I proposed to the Office 
of Drug Control Policy and the Federal Communications 
Commission that the public had a right, as owners of the public 
airwaves, to require a minimum level of public service 
announcement on the drug issue. However, a compromise was 
reached that Congress would fund media buys that would be 
matched by 100 donated broadcast time or space. That is the 
current situation and law that we live under, again resulting 
in $1 billion program with matching contributions.
    The Partnership and others worked to convince Congress to 
appropriate Federal dollars for media buys so the anti-drug 
message could continue. In fiscal year 1998, Congress 
appropriated $195 million, $20 million over the President's 
request, to support the national anti-drug media campaign, $185 
million in fiscal year 1999 and $185 million in fiscal year 
2000.
    While our first hearing on the campaign focused on the 
development and administration of the campaign, today's hearing 
will focus on the evaluation phase of the campaign. How will we 
measure whether our significant taxpayer investment has been 
effective in accomplishing the objectives of the campaign. Have 
we reached our target audience, have young people changed their 
attitudes about drugs, have parents started talking to their 
kids more about the dangers of drugs and ultimately, are kids 
using drugs less or hopefully not at all?
    Today, the subcommittee will learn more about both the 
progress that has been made and the areas of concern that we 
still have.
    In our last subcommittee hearing on this topic which was in 
October of last year, questions were raised about the need for 
a maze of costly contracts and subcontracts to conduct the 
campaign. Questions were also raised about whether enough funds 
were going into media buys noting that as much as $40 million 
was being spent on other programs.
    Additional concerns were focused on the payment of Federal 
funds for activities that in the past had been donated or could 
be obtained by partnering with other agencies and 
organizations. Serious questions were also raised as to whether 
a White House office was in fact the right entity to properly 
administer and manage a $1 billion program, something normally 
done by an executive branch department or agency with a bigger 
staff, more contact experience and an Inspector General's 
Office with established oversight procedures and safeguards.
    As we now turn to evaluate the effectiveness of the 
campaign, we must first examine the evaluation plan which is 
primarily being administered by the National Institute of Drug 
Abuse. Taxpayers will spend $35 million of taxpayer money over 
5 years to evaluate the campaign's progress. At the end of the 
day, we have to ask ourselves the question, what will we 
receive for the funds expended.
    As I mentioned last October, I fully support reasonable 
evaluation research in this effort and I think it is necessary. 
However, we have already spent millions of dollars on 
evaluation of phases I and II of the campaign with very little 
to show for it.
    As I understand it, because of the short duration of the 
first two phases, a baseline was not established so no trend 
data is available. Furthermore, because we now have a different 
contractor with a different survey method, the evaluation work 
in phases I and II cannot be used in phase III. That leaves us 
wondering what we receive for our initial millions of dollars 
already expended.
    If we consider simply expanding existing federally 
sponsored research such as the project entitled, ``Monitoring 
the Future,'' a project of the University of Michigan that has 
been tracking attitudes about illegal drug use and drug use 
trends for decades.
    Hopefully, today's witnesses will be able to answer some of 
these questions. What about the campaign's effectiveness? The 
White House recently proclaimed a drop in teen drug use from 
1997 to 1998 but in its biennial report entitled, ``1999 Youth 
Risk Behavior Survey,'' the Centers for Disease Control and 
Prevention found that drug use in America has increased 
throughout the 1990's, including last year. In fact, I think we 
sat right at this table and we were briefed several weeks ago 
by the CDC on this new survey.
    The survey found that while 14.7 percent of the students 
that had been surveyed said they currently used marijuana in 
1991, that number almost doubled to 26.7 in 1999. The CDC also 
reported to our subcommittee that the lifetime marijuana use 
increased from 31.3 percent in 1991 to 47.2 percent in 1999 and 
that current cocaine use more than doubled during the same 
period.
    These discrepancies need to be explained. We really 
shouldn't fool ourselves or the American public into thinking 
there has been short-term drop in teen drug use when in fact 
the opposite may be true. While I believe General McCaffrey, 
the head of the ONDCP has done an outstanding job in helping to 
get our national drug policy back on track, nonetheless it is 
our subcommittee's responsibility to conduct proper oversight 
of this most important and most expensive antimedia campaign.
    Unfortunately, several other controversial practices have 
also raised a number of questions relating to this national 
media campaign that requires oversight of this subcommittee. 
First, in February of this year, a controversy erupted over the 
reported White House practice of reviewing TV scripts for anti-
drug programming content prior to the airing of these shows. 
Cries of government interference and censorship were voiced in 
editorials and news broadcasts across the country. The ABC 
Television Network was particularly vocal in their concern that 
this practice be halted immediately.
    As reported by the New York Times on January 17, 2000, 
``Ms. Fili-Krushel said ABC had decided not to participate this 
season because the Government had asked to see the scripts 
before they were broadcast.''
    As a result of the controversy, the ONDCP was compelled to 
issue a White House press release which said, ``New Guidelines 
to Clarify Pro Bono Match Component of the Anti-Drug Media 
Campaign,'' which was issued on January 18, 2000. At least one 
major print publication, USA Weekend Magazine for USA Today, 
has declined to participate further in this portion of the 
campaign.
    In a letter to me dated May 23, 2000, president and CEO, 
Marcia Bullard, wrote, ``I do have concerns about how the media 
campaign was conducted and as a result, I do not intend to 
continue participating in the campaign under the parameters as 
I current understand them.''
    In a second embarrassing incident, a news report surfaced 2 
weeks ago that accused the White House of secretly monitoring 
the activities of Internet visitors to two ONDCP Web sites, 
freevibe.com and theantidrug.com. Visitors to these Internet 
sites were not notified that their activities were being 
monitored by the insertion of so-called cookies into their hard 
drives. Again, cries of Big Brother spying and invasion of 
privacy were heard nationwide and the practice I believe was 
ordered stopped by the White House chief of staff. However, 
damage to the program may have been done.
    While I support the overall anti-drug media campaign and in 
particular, the concept of the media buys, I am not convinced 
that we should be spending taxpayer dollars on programs that 
are less proven and somehow detract from our ability to 
maximize our media buys.
    Furthermore, the subcommittee has reason to be concerned 
about the recent national controversies surrounding the conduct 
of the White House anti-drug media campaign. Sometimes poor 
decisions and miscommunications on the part of overzealous 
staff and contractors have now called into question the 
credibility of the campaign with the very audiences that we are 
trying so hard to reach, namely the youth of America and their 
parents.
    Trust is a very important and essential ingredient in any 
national public education campaign. We cannot afford to have 
kids thinking that every anti-drug message portrayed on 
television was planted by the government. Likewise, we cannot 
afford to have their parents fearing they are being spied upon 
every time they visit a Government Web site for information, 
help or assistance.
    Finally, as chairman of the subcommittee, I have visited a 
number of communities across the country examining our national 
drug control efforts. In fact, we have held hearings from one 
end of the country to the other. We almost always have a youth 
panel, individuals involved in law enforcement, prevention and 
education. Everywhere I go I ask people if they know about the 
national youth anti-drug media campaign and if they have seen 
any of the ads or any of our effort. Unfortunately, the 
reactions I get at the very best are mixed. Students from 
hearings we have conducted in Texas, Hawaii, Florida, 
Louisiana, Iowa, have raised questions about the effectiveness 
of these anti-drug ads.
    While I realize this is only a small sampling of those who 
have seen the ads, clearly much more needs to be done to make 
certain these ads are as effective and positive as possible. I 
look forward to hearing from all our witnesses today as we seek 
to learn more about the effectiveness of this national youth 
anti-drug media campaign. I look forward to working with 
General McCaffrey and all the others in our various agencies 
dedicated to making this program a success.
    I am pleased at this time to yield to Mr. Cummings, the 
gentleman from Maryland.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.001
    
    [GRAPHIC] [TIFF OMITTED] T2752.002
    
    [GRAPHIC] [TIFF OMITTED] T2752.003
    
    Mr. Cummings. Thank you, Mr. Chairman.
    I do thank you for calling this hearing. I would also like 
to thank General McCaffrey for his strong leadership and 
cooperation with Congress in fighting this war against drugs.
    In particular, he has worked with me on several occasions 
and has even come to my district on numerous occasions to 
discuss constituent concerns and to hear from youth in 
Baltimore.
    I must tell you, Mr. Chairman, as I listened to your 
opening statement I had my own concerns and I want to just 
express them here and now.
    One of the things I have noticed since I came to Congress 
is that I remember my first hearing with General McCaffrey 
where he was coming under attack from every direction. It 
seemed he couldn't do anything right. I wasn't attacking him 
because I didn't know him but the other side was.
    For some reason, we constantly told him whatever we do, and 
I think we all agreed on this one point, we want tax dollars to 
be spent in an effective and efficient manner. We said to him, 
you are the boss; we want you to look at everything you are 
doing and try to make sure we reduce this drug situation. As a 
matter of fact, I remember one hearing where he had some goals 
and on the other side, you all were trying to get him to up the 
goals to make them almost unreachable.
    The issue with ABC brought me to say what I just said. On 
the one hand we say, we want you to spend these tax dollars 
effectively and efficiently, and we want you to watch 
everything that goes on, to be careful, work with private 
industry and I have also heard the criticism in a hearing not 
too long ago that when we get these donations from the 
networks, there was a question raised as to whether we were 
truly getting what we thought we were getting in that we were 
looking at the programming and said, is having a drug message 
in a program as effective as having commercials.
    I am one who is always concerned about Big Brother looking 
over our shoulders, but I must say to you that I think General 
McCaffrey has been sent all kinds of messages from this 
Congress and I think it becomes difficult sometimes to figure 
out exactly what to do and how to do it. Under all of those 
circumstances, I think he has done a good job.
    One of the things I was concerned about early on was a 
report issued that said, even after this campaign had started, 
while White teen drug usage was going down, drug usage in 
African Americans and Latinos, if I remember correctly, was 
going up.
    To General McCaffrey's credit, I called him and said, I 
read this report, I do not like this and I want it going down 
for everybody. He immediately dispensed a team to Baltimore and 
they literally sat down with I guess 150 teenagers from schools 
throughout the city. He brought in the media experts, his staff 
and spent literally 4 or 5 hours with these young people 
reviewing the ads and giving their advice with regard to those 
ads.
    I know we have traveled throughout the country but in my 
district, young people face drugs being pushed at them every 
day. Some of them when they go to school, they have to go 
through people who are pushing drugs. That is an everyday 
occurrence. These are children that go to funerals three, four 
or five times a year because someone has been killed due to 
drug violence. So they see life in the raw.
    Most of those children, that 150, I would say 90 percent of 
them said they were familiar with the campaign and the ads did 
affect them. This was the issue, Mr. Chairman. When they looked 
at the ads, there were three ads they liked, that they felt 
really hit them hard.
    The most popular ad was Lauren Hill and 95 percent of the 
kids who had seen ads and said they were affected were affected 
by Lauren Hill. I don't know if you are familiar with Lauren 
Hill.
    Mr. Mica. I have never heard of her.
    Mr. Cummings. I wasn't familiar with Garth Brooks but now I 
am but Lauren Hill is a young women about 22 or 23 years old 
who is an unwed mother, who had a difficult life coming up--I 
think she came up in the projects--and she turned her life 
around. In her songs, she talks about the difficulties that she 
has come through.
    I asked the young people, why is it that her ad affects you 
so much and they said, because we think she understands what we 
go through. That was a consistent message over and over. We 
believe, because she has experienced what we have experienced, 
that is why the message affects us.
    The second most popular ad was one with Serena and Venus 
Williams. They said this was less effective. Why? Because these 
girls have had a nicer life and have not gone through the 
difficulty.
    The last one, which was very interesting, was the frying 
pan ad where the lady slams the egg and all that stuff but to 
his credit, and this is the point I am trying to make, he came 
and spent 4 or 5 hours with some teenagers and had his media 
experts go through those ads and they left with the commitment 
that they could see where our young people were coming from, 
that they would go back to the drawing board and look at how 
those ads were being put out and whether they needed to find 
some more Lauren Hills and people like that.
    Simply put, I know we will give General McCaffrey an 
opportunity to say what he has to say but from what I have 
seen, I think there has been a genuine effort by this General 
and his staff to do the right thing. If something fell by the 
wayside, things can happen, as you know, and when you have a 
Congress of 435 people yelling at you and 100 Senators yelling 
at you, telling you what to do and how to do it, and then try 
to balance all of that with reports coming out almost every 
month, I think it can get rather difficult.
    General, I think the chairman has raised some very good 
questions and I think they are reasonable questions, but I also 
know something else. Every time questions have been raised in 
the past, you had a reasonable answer. I just want to make sure 
we understand what you are dealing with.
    Last but not least, I leave you with this simple statement. 
You need to continuously let us know how we can help you help 
our children and help our society so those tax dollars the 
chairman speaks about, are spent in an efficient and effective 
manner.
    Thank you.
    Mr. Mica. I thank the gentleman from Maryland.
    I am pleased to yield now to the gentleman from New York, 
Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    I want to welcome General McCaffrey before us this morning.
    I want to thank my colleague from Baltimore for his good 
words this morning.
    I think it is important you are holding this hearing today 
to evaluate the progress of our national youth anti-drug media 
campaign. We look forward to today's testimony. We hope our 
panelists have some positive words for us and the subject 
matter has had far too much negative news throughout the 
Nation.
    The National Youth Anti-Drug Media Campaign does serve as a 
vital component of a key pillar in our war on drugs, prevention 
and education. For years, we have heard from the source 
countries that America needs to do its part in reducing demand. 
Of course we must not neglect the reduction of supply just as 
we try to reduce demand. They have to be done simultaneously.
    We need to do our part in drug education and prevention 
programs that can play a key role in meeting our goals. The 
idea for a national media campaign, as we know, was born during 
the Reagan administration which was fighting at that time a 
wave of drug use and abuse among our adolescents and an 
unforgivably tolerant attitude toward drug use from the 
entertainment industry, an industry we would hope would come on 
board and do a lot more than they have.
    The resulting creation of the Partnership for a Drug Free 
America in 1987 helped to usher in a longstanding series of 
anti-drug ads which did prove to be of some effect at no cost 
to the taxpayer. That, in part, helped lead to a steady decline 
in adolescent drug use from 1987 until 1993.
    The drug environment facing today's teenagers has changed 
drastically from that of a decade ago. Regrettably, drugs today 
are cheaper, of higher purity, more readily available than ever 
before. Furthermore, unlike a decade ago, the media does not 
emphatically communicate the dangers of drug use, that drugs 
are not recreational, that drug substance abuse is deadly and 
can ruin and affect their lives.
    Instead, more emphasis is being placed on efforts by the 
pro-legalization groups to decriminalize drug use through their 
campaigns of disinformation and focus on medical benefits of 
drug use. Moreover, in doing that, the national media does not 
even pretend to present a balanced story. The bulk of its 
sympathy seems to lie with the pro-legalization people. That 
situation presents a greater challenge to the organizers of the 
national youth anti-drug media campaign than that faced by 
their predecessors. They are fighting an uphill battle, but it 
is a battle we cannot afford to lose. Far too much attention is 
being given today to creating a culture of tolerance for drug 
use. We have seen what that culture of tolerance can do in some 
of our foreign nations.
    More emphasis is needed to convey the point that the road 
to hell is paved with good intentions and that this culture of 
tolerance is sowing the wrong seeds, the seeds for greater 
social problems down the road.
    We all recognize that drug use is not glamorous and is full 
of false promises that can only lead to self destruction. 
Routine drug use eventually leads to addiction which destroys 
families, shatters lives and leaves a landscape of wasted 
resources and unrealized potential behind.
    The proponents of legalization have been focusing on their 
goal, however misguided and self-serving that may be. We need 
to be equally committed to our goal of prevention, of 
preventing the youth of today from selling out their futures 
for a lifetime of substance addiction. For that, we need an 
effective means of communication of which a key component is 
our national youth anti-drug media campaign.
    Mr. Chairman, I thank you for arranging this hearing. I 
think it is very timely. We look forward to hearing today's 
testimony. Again, we welcome General McCaffrey our leading 
witness.
    Mr. Mica. I thank the gentleman from New York.
    I am pleased to recognize now, the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. I have very short remarks.
    I want to thank General McCaffrey for joining us today. I 
look forward to hearing his comments.
    I think we have been on a path of ignorance for a long time 
and I think of late, we have come to a situation where we 
understand education and information and preventive aspects are 
a part that we have to really pay attention to. I want to hear 
what it is you have to say and your efforts there, General 
McCaffrey.
    Again, thank you for coming.
    Mr. Mica. There being no further opening statements, we 
will proceed to our first panel. Our first panel consists of: 
the Director of our Office of National Drug Control Policy, 
Barry R. McCaffrey. As you know, General, the purpose of our 
subcommittee is, first of all, one of oversight and 
investigation and in that regard, we do swear all our 
witnesses, so if you would please stand to be sworn and raise 
your right hands.
    [Witness sworn.]
    Mr. Mica. The witness answered in the affirmative. Again, 
welcome, Director McCaffrey, back to our subcommittee. As you 
know, we do have investigations and oversight responsibility 
and we also try to coordinate our national effort and our 
national policy on drug use and abuse. We have tried to work 
with you as best we can on making certain this program, a very 
extensive national program, is a success.
    If you will bear with me a second, we have been joined by 
our ranking member, Mrs. Mink. I tell you I had no greater 
appreciation for Mrs. Mink than when I went out to do a hearing 
in her district in Hawaii and I am sure everyone thought I 
would be out at the beach watching the string bikinis and all 
of that, but I actually arrived early on a Saturday night, 
early Sunday morning, was greeted by Mrs. Mink that Sunday 
morning after recovery and recuperation and we went immediately 
to the Honolulu police station. We spent the afternoon in a 
weed and seed program and then she took me to the State prison 
where we met with the drug offenders, through the evening a 
working dinner and the next morning a long hearing. Then she 
ended with having me attend on Monday afternoon the drug court 
and then fly all night through Atlanta and back to Washington. 
I know what she goes through, the flight is just unbelievable. 
I don't know how she does it and she came in last night. So 
welcome back.
    People don't realize what Members of Congress go through. I 
did it just once to attend and participate in a hearing in her 
district, but I certainly admire her. I am pleased to welcome 
her even though a few minutes late. I admire her leadership on 
this issue.
    Before we recognize you, General, let me recognize our 
ranking member.
    Mrs. Mink. Thank you, Mr. Chairman.
    If you had all that sympathy for my travel agonies, you 
would have scheduled this meeting at 10 a.m. rather than 9 a.m.
    That is all I have to say. Thank you very much.
    Mr. Mica. We do have a full hearing of three panels this 
morning, so we did get an East Coast start. Again, thank you so 
much.
    General, I apologize for the interruptions. We have been 
joined by another Member but we will proceed at this time with 
your testimony. Thank you for your patience and your 
leadership. You are recognized.

 STATEMENT OF BARRY R. MCCAFFREY, DIRECTOR, OFFICE OF NATIONAL 
                      DRUG CONTROL POLICY

    Gen. McCaffrey. Mr. Chairman, to you and the members of the 
committee, I thank you again for the opportunity to come down 
here and lay out our thinking and probably more importantly, to 
hear your viewpoints and to respond to your interests.
    With your permission, if I may suggest, I will enter into 
the record three things; one, a statement that we put enormous 
efforts into to try, to bring together in one document, cleared 
by the administration, the numbers, and the assertions upon 
which this debate can be better informed. I offer that for your 
consideration.
    Also, I would offer copies of the briefing charts that I 
will walk through briefly to try to capture the seven major 
points I will make in my opening statement.
    Then, finally, I think this has more value than anything 
else, are some letters from constituent organizations who have 
shaped and informed my thinking.
    Mr. Mica. Without objection, the documents referred to will 
be included in the record and so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.004
    
    [GRAPHIC] [TIFF OMITTED] T2752.005
    
    [GRAPHIC] [TIFF OMITTED] T2752.006
    
    [GRAPHIC] [TIFF OMITTED] T2752.007
    
    [GRAPHIC] [TIFF OMITTED] T2752.008
    
    [GRAPHIC] [TIFF OMITTED] T2752.009
    
    [GRAPHIC] [TIFF OMITTED] T2752.010
    
    [GRAPHIC] [TIFF OMITTED] T2752.011
    
    [GRAPHIC] [TIFF OMITTED] T2752.012
    
    [GRAPHIC] [TIFF OMITTED] T2752.013
    
    [GRAPHIC] [TIFF OMITTED] T2752.014
    
    [GRAPHIC] [TIFF OMITTED] T2752.015
    
    Gen. McCaffrey. Let me begin by recognizing some of the 
attentive constituencies who are here. First of all, most 
importantly, the Executive Director of the Partnership for Drug 
Free America, Dick Bonnette. As you know, they have been really 
the other pillar in shaping this entire campaign. They bring to 
bear 10 years of experience. I also wish to thank Jim Burke, 
their chairman, and Dick Bonnette for their leadership.
    Art Dean is here, the CEO of Community Anti-Drug Coalitions 
of America. During his short tenure of a bit more than a year, 
we have increased anti-drug coalitions from some 4,000 to some 
5,000. We are moving in the right direction and that is with 
very modest Federal dollars involved in this program. Some 400 
community coalitions by the end of this year will have received 
startup moneys.
    We also have present Wally Schneider, the president of the 
American Advertising Federation. We are very proud that we have 
both Shona Seifert from Ogilvy and Mather and Harry Fraizier 
from Fleishman Hillard. Arguably these are two of the most 
sophisticated and competent organizations. Ogilvy Mather does 
our media buying, does the heavy lifting, handles most of the 
money and Fleishman Hillard is doing our outreach, integrated 
strategy, Internet operations, and so forth.
    We also have the Ad Council's two vice presidents, Donna 
Feiner and Dianna Ciachetti and Dr. Linda Wolf Jones of 
Therapeutic Communities of America. As you know, our purpose in 
this entire prevention campaign is, in the coming 10 years, to 
reduce the 5 million chronic addicts who are causing $110 
billion in damage in this country each year and some 52,000 
dead. We thank Dr. Jones for her leadership.
    Allen Moghul is here from NASADAD and Robbie Calloway from 
Boys and Girls Clubs. If you want to look for a model on drug 
prevention programs, it is the Boys and Girls Clubs. Also with 
us is Beth Walkinghorse from the YMCA. All of these are pretty 
good examples of how to go about keeping kids engaged with 
mentoring activities.
    Finally, we have Jessica Hulsey here from the Drug Free 
Communities Advisory Commission. They have been a huge help to 
me.
    Let me quickly put in front of your committee the key 
documents that are the basis upon which this discussion has to 
proceed. The most important one is the law. When people ask me 
what I am doing on the media campaign, I was told by Congress 
what my purpose would be and given some pretty sensible 
parameters to go about it. I would ask you to take that into 
account as we proceed in this discussion.
    We also wrote, with the help of contractors, a 
communications strategy, ``The Burgundy Bible.'' This is the 
basis upon which the media campaign in its entirety has 
proceeded; it is a pretty sound piece of work. We will 
obviously revise it over the coming years as the environment 
changes.
    It is also important, particularly in this hearing where 
you are going to get some valuable anecdotal insight from some 
young people, to note in passing that they are not in the 
target range of the media campaign. They are older than the 
prime focus of the campaign.
    This is the phase I of evaluation. We went to 12 cities and 
got 12 control cities and began with the off-the-shelf 
advertising material from PDFA, we paid a considerable about of 
money to have some very clever people watch that baseline 
develop. I think a tremendous amount came out of it. Thank God 
we started small and walked before we ran. I commend the phase 
I of evaluation to your attention.
    In phase II, we went national. We went national mostly with 
existing material but we again had some very sophisticated 
people try and get an evaluation of whether the ads were being 
seen, were they found to be credible, did they begin to shape 
attitudes. It was backed up not just by baseline data--by the 
way, it was all collected in schools, so it has a different 
look, a more narrow look than phase III. This is the outcome, 
which we have provided to Congress, and it is extremely 
encouraging. I will put up one chart to that effect.
    Finally, if I may release to the committee today, the phase 
III evaluation design. We have now got I think one of the most 
respected institutions in science in America, part of the NIH, 
the National Institute of Drug Abuse, headed by Dr. Alan 
Leshner, which has provided through Westat Corp. and other 
subcontractors--the Annenberg School of Journalism, and you 
will have testimony on panel II from two of their scientists. 
This is their phase III design. They are going to answer four 
questions. The first data from phase III I will give you prior 
to September, I hope. In March we will have the first real 
insights on how the campaign is evolving and shaping youth 
attitudes, but over time, I think the money we are spending on 
this evaluation is going to provide profound insights that help 
us shape the evolving campaign.
    If I may, let me put those in front of your committee to 
make sure we don't miss the rather obvious statement, that this 
is not a seat of the pants operation. This is one of the most 
complex, science-based and fully evaluated public health 
campaigns in history.
    It is probably premature for me to make much of this yet, 
but the General Accounting Office has done an in-depth study of 
the media campaign. We have commented on their report. It has 
not yet been formally presented to the Congress. We are 
extremely proud of the professionalism and the blow torch of 
detail that GAO brought to bear on this program.
    I would be prepared to discuss their emerging insights. I 
think it is extremely favorable, not surprisingly from the way 
we are going about our business.
    Let me run through seven slides very quickly. The first is 
to underscore, when we get in these discussions why we are 
doing the following things. Let me start with the law, if I 
may. Why are we doing various things? We are buying media space 
and time, we are testing and evaluating, we are going to the 
entertainment industry for collaborations all because it is in 
the law. We are doing interactive media activities.
    Our children are on the Web. The eighth graders are on the 
Web more than the 12th graders. For the first time in our 
history, we now have more families with children 17 or younger 
who have Internet addresses than newspaper subscriptions. That 
is why we are in that part of the media.
    We are doing public information; we have submitted our 
corporate sponsorship plan and we are clearly involved in 
partnership and alliance with the major organizations that make 
America work. We are heavily involved with the Rotary Club, 
Kiwanis, 100 Black Men, you name it, 41 civic associations have 
come together to stand with us on this issue.
    The strategy says we have 5 goals, with 31 objectives. As 
you know, we have designed the campaign in accordance with the 
law, and performance measures of effectiveness so that we can 
measure what we are doing with the money you give us. The most 
important of any of these goals is goal 1. As you look at it, 
it goes right to the heart of it. It says, ``Focus on 56 
million American children and motivate them, shape their 
attitudes, primarily between the 6th and 12th grades to reject 
illegal drug use as well as alcohol and tobacco.'' That is what 
we are up to in the media campaign.
    I would argue this campaign, in many ways, relates to most 
of the other prevention and education activities we have going 
on. That is why Art Dean of the Community Anti-Drug Coalitions 
so strongly support this, because the media campaign builds 
community support for local coalitions.
    Here is the shape of it, the six major components. Again, 
it is important for me to stress this isn't a TV ad buy. This 
isn't a radio spot market ad buy. It is a lot more than that. 
It is an attempt to get at interactive, to involve the 
entertainment industry, advertising, public information, 
corporate sponsorship as well as community partnerships. There 
are our three targets. It is not just youth audiences. We are 
trying to shape and talk to moms and dads, adult mentors, 
people who work with young people, influential adult audiences. 
Those are the targets of the media campaign, the anti-drug 
message.
    By the way, for the first time in history, we are 
evaluating it specifically. We paid money up front. We have a 
science-based way of telling not only that drug use in America 
will predictably continue to come down but we will try and 
disentangle which influences created the most pay back for our 
tax dollars. I think we are going to be able to cover that a 
bit the next panel will more knowledgeably address that 
thought.
    There is a feedback loop there. Yesterday in reviewing my 
testimony, I was pretty adamant with NIDA. It is not enough. My 
colleagues I work with Ogilvy and Mather, Fleishman Hillard and 
11 subcontractors--provide feed back so we can modify this 
campaign and learn from it as it goes along.
    Here is a quick look at it. We began hoping to hit a target 
audience. Jim Burke and I, on the back of an envelope, said we 
are aiming for four times a week, 90 percent market 
penetration. That is where we were headed. When you combine the 
paid component and the matching component which you have 
required me, by law, to get, 100 percent matching component, 
that is where we are. For the general population, essentially 
we are up to seven times a week with a 95 percent market 
penetration. When you look at the African-American population, 
it is similarly extremely high penetration and Hispanic as 
well.
    I might add we are watching 10 ethnic subcontractors' work 
to make sure we are not hitting our overall targets, as Mr. 
Cummings pointed out, but also getting to communities the 
relevant antidrug messages, so that the message in Hawaii, in 
Boise, ID, Newark and Miami are all quite different. The drug 
threat, and the nature of the community has to be taken into 
account.
    Here is a matching component. There are a bunch of 
different ways to dice it and I would be glad to respond to 
your questions but let me give you the bottom line. Started in 
January 1998, we are now at the 2-year anniversary of national 
media campaign. We are starting our third year. The anniversary 
was only last week.
    The campaign has made Federal ad buys, $318 million, and I 
got 130 percent matching funding. If you take into account time 
and space, programming, other corporate contributions, all 
together that comprises 130 percent match, almost $1 billion in 
value to the taxpayers. I mention this because I think the 
industry--advertising, entertainment--has been extremely 
supportive in general of what we are trying to do.
    Is there a payoff? Obviously it is premature to claim we 
have a causal relationship between an ad and a youth attitude. 
Having said that, I want to show you some clusters of studies 
that tend to track together. That is what is happening right 
now. The statement posed ``Kids who are really cool don't use 
drugs.'' More of them are agreeing than prior to starting the 
campaign. In my school, marijuana users are popular. It is 
going down dramatically, not up.
    We mentioned the household survey data which Secretary 
Donna Shalala and I will put out again in late August. We don't 
yet know the results, but here is what happened last year. For 
12 to 17 year olds drug use went down 13 percent. It was 
statistically significant in a mathematical sense. Some things, 
such as inhalant use, went down dramatically. Cocaine use is 
down. Marijuana use is down.
    What is the discrepancy between the CDC data that you 
mentioned and these studies? They are taken in different 
timeframes. CDC is 1991 to 1998. This is an ongoing, huge data 
base, longitudinal study and it is saying last year, drug use 
went down. I hope it continues to say that, although I am sure 
we will have some fluctuations off the mean as we work through 
this in the coming years. That is one data point I would 
suggest you take into account.
    There are others. Is it working? The pro bono match is 
coming in--130 percent was the total figure but it is 107 
percent pro bono direct match. The Internet site Freevibe.com, 
you talk about leverage--1.8 million page views. These kids 
come to the site and they stay. I am going to talk about 
``cookies,'' as one of the top 25 people in the country now who 
understand cookies, why we are trying to evaluate these online 
programs.
    Television programs, content, 100 million teen impressions, 
250 million adult impressions, 63 percent of parents now 
reporting discussing risk of drug use, up from 53, dramatic 
changes, as shown by the Center for Alcohol and Substance 
Abuse, at Columbia University.
    We also went out there to build a coalition. One of the 
mandates from Congress, and it was a sensible one, was make 
sure your dollars don't dry up associated youth-oriented 
organization outreach efforts. That is why Peggy Conlon and the 
Ad Council have been so fundamental to what we have been trying 
to achieve. These are just representative.
    When you look down the organizations we partnered with and 
see the impact of the pro bono match portion of the campaign on 
their outreach, it is astonishing. The National Fatherhood 
Initiative is up 384 percent, Kids Peace, their hits in the 
first quarter of 2000 were greater than the entire year of 
1999; National 4-H Council, I am about to go to an event with 
them, they've experienced a 20 percent increase in their 
volunteers; Crime Prevention Council, a huge increase, $18 
million worth of equivalent advertising; America's Promise, Web 
site hits up 122 percent and that is almost unquestionably due 
to the matching component of the ad campaign that Congress 
authorized.
    We do have some guidelines on pro bono match. We think the 
thing has been run pretty sensibly but there was confusion. You 
are going to hear from a journalist, Dan Forbes, about his 
reporting on the matching content. I would just tell you up 
front the notion that there was Government money being secretly 
paid to manipulate ``Manchurian Candidate'' style the minds of 
the American people is laughable. This was the subject of three 
congressional hearings, was on the front page of USA Today, was 
widely reported throughout the industry. It was released by 
President Clinton and me and Newt Gingrich and the Governor of 
Georgia on all national TV in July 1998. It is the subject of 
those evaluations which I provided to Congress.
    By the way, not 1 cent got paid to anybody for program 
content. Media executives who chose to use program content as 
part of their matching, around 15 percent of it--it was very 
important not to the big media like ABC but to media with less 
financial resources. So we wanted to make sure we gave 
producers, directors and artists not only scientifically 
accurate information but the option of working the message into 
program content.
    It is unquestionable that I am trying to get an anti-drug 
message against methamphetamines, heroin, cocaine, marijuana 
abuse into popular culture. That is what we are trying to do. 
We clearly cannot take on any involvement in the creative 
process, we don't want to be involved in the review authority, 
I want Ogilvy Mather to do that. They are a big, professional 
commercial operation and we have to make sure, as we have in 
the past, that there is no spill over or crossover into news 
editorial substantive content or reporting.
    Here is a little insight on ``cookies.'' All of us ought to 
be concerned over privacy on the Internet. This is a valid 
concern and if we don't follow it closely, meaning the Congress 
and others of us in Government, we will end up with a situation 
we don't like. We clearly do not want relational data bases in 
which people can monitor individual activity and tie it to a 
government agency by name. That is what we are concerned about. 
Technically, in the coming years that would absolutely be 
possible.
    When we talk about cookies, what they were being used for, 
with what impact? First of all, there is zero possibility that 
the cookies being used by ONDCP could in any way be tied to an 
individual person. You simply can't do it. It is inert code. It 
is in there and identifies that you came to freevibe.com, that 
you clicked through, at what level you exited, how long did you 
stay there. If you come back again to the site, it will say 
this computer has come back, give them a new ad, but you cannot 
say that somebody typed in the word pot, why don't we report 
them to the DEA. This is ludicrous. We have to make sure that 
technically we understand what we are talking about.
    Second, we ask the question do cookies have any value. Yes, 
they do. If I put on cookie disable, and you ought to try it on 
your computer so that every time you are on the Internet, 
somebody tries to insert a temporary or hard drive cookie in 
your computer, you have to give individual permission. I 
guarantee that you are going to turn it off after about a hour. 
There is a blizzard of these devices to allow you to operate 
effectively on the Internet and allow us to evaluate our media 
campaign.
    People using cookies include the ACLU, the United Way, the 
Republican National Committee, the FTC, the Federal Reserve 
Bank of Chicago, Representative Dick Armey, Representative Dick 
Gephardt, the Washington Post and Toys R Us. I just mention 
that because this is a tool of the modern age. It deserves your 
careful scrutiny. We ought to be concerned about it, but we 
also want to understand the technology we are now working with.
    Let me tell you that my own assessment is we have gotten a 
huge complex program up and running pretty effectively. You are 
going to hear from kids who will say good or bad things. 
Remember we are out there with focus groups of the right age 
population, including various ethnic backgrounds. We are 
modifying these ads so they are science-based and they tell a 
story that is credible and true to young people and their adult 
mentors.
    Let me close by showing you a video. It will give you 
insight into the nature of some of these video messages.
    [Video presentation.]
    Gen. McCaffrey. When that ``girl power'' ad showed with my 
two daughters in the audience in Seattle last week, the entire 
audience stood up and cheered. It is a powerful message. 
Secretary Shalala and I released it with 200 young women in the 
room to try to get into play that we are focused on all 
children in America.
    The final example I showed you was an example of two 
things. Mr. Bill Cosby on program content, they chose to do 
so--producer, the director, the writers of that video to 
include an anti-alcohol, anti-drug youth message in their 
program.
    The second part of it, when he talks of the 1-800 number, 
for calling in, that is their matching public service 
announcement. That is the power of this media communicating a 
science-based message to our children. We ought to expect it to 
work over time. The kids don't have problems, we argue, the 
adults have problems. This is part of our attempt to 
communicate with children.
    Thank you again for the chance to lay out these opening 
statements. I look forward to responding to your questions.
    [The prepared statement of Mr. McCaffrey follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.016
    
    [GRAPHIC] [TIFF OMITTED] T2752.017
    
    [GRAPHIC] [TIFF OMITTED] T2752.018
    
    [GRAPHIC] [TIFF OMITTED] T2752.019
    
    [GRAPHIC] [TIFF OMITTED] T2752.020
    
    [GRAPHIC] [TIFF OMITTED] T2752.021
    
    [GRAPHIC] [TIFF OMITTED] T2752.022
    
    [GRAPHIC] [TIFF OMITTED] T2752.023
    
    [GRAPHIC] [TIFF OMITTED] T2752.024
    
    [GRAPHIC] [TIFF OMITTED] T2752.025
    
    [GRAPHIC] [TIFF OMITTED] T2752.026
    
    [GRAPHIC] [TIFF OMITTED] T2752.027
    
    [GRAPHIC] [TIFF OMITTED] T2752.028
    
    [GRAPHIC] [TIFF OMITTED] T2752.029
    
    [GRAPHIC] [TIFF OMITTED] T2752.030
    
    [GRAPHIC] [TIFF OMITTED] T2752.031
    
    [GRAPHIC] [TIFF OMITTED] T2752.032
    
    [GRAPHIC] [TIFF OMITTED] T2752.033
    
    [GRAPHIC] [TIFF OMITTED] T2752.034
    
    [GRAPHIC] [TIFF OMITTED] T2752.035
    
    [GRAPHIC] [TIFF OMITTED] T2752.036
    
    [GRAPHIC] [TIFF OMITTED] T2752.037
    
    [GRAPHIC] [TIFF OMITTED] T2752.038
    
    [GRAPHIC] [TIFF OMITTED] T2752.039
    
    [GRAPHIC] [TIFF OMITTED] T2752.040
    
    [GRAPHIC] [TIFF OMITTED] T2752.041
    
    [GRAPHIC] [TIFF OMITTED] T2752.042
    
    [GRAPHIC] [TIFF OMITTED] T2752.043
    
    [GRAPHIC] [TIFF OMITTED] T2752.044
    
    [GRAPHIC] [TIFF OMITTED] T2752.045
    
    [GRAPHIC] [TIFF OMITTED] T2752.046
    
    [GRAPHIC] [TIFF OMITTED] T2752.047
    
    Mr. Mica. Thank you.
    I will start with several questions and then yield to other 
Members.
    First of all, we do have concern about getting to the 
target area and population that is most affected right now. Mr. 
Cummings brought up the fact of the impact particularly on 
African-American youth and also Hispanic youth.
    I notice from the statistics you gave us from the 
evaluation that one of the lowest frequencies sort of hits on 
this coverage appears to be the Hispanic population which has 
also been very heavily impacted. Is there some mechanism in 
place now to readjust the frequency of these ads and the 
targeting of these ads to the groups most affected.
    We are seeing again a dramatic rise with some of the 
minority population in drug use and abuse but it doesn't look 
like we are hitting the mark with one of those populations, at 
least the one provided to the subcommittee.
    Gen. McCaffrey. Your concern is one I share. We are 
certainly paying a lot of attention to it. This is a $36 
million effort in multicultural media plan focus. We have 11 
subcontractors. It is the largest multicultural, ongoing 
program by the U.S. Government. We are getting 86 percent of 
the Hispanic audience 3.7 times a week but we are worried. 
There is a tougher group to reach which is the Native American 
population.
    It is not just getting to them with a credible message but 
finding ways to evaluate it, to know who is hearing and reading 
what we are doing. We do focus on Hispanics. Seventeen Hispanic 
magazines carry our ads in them and we think we will get a 
better impact in the coming year. It is complex getting to 
Chinese-American populations, Samoan populations, Native 
Americans. We have to be very worried about it.
    Mr. Mica. We have some concern about the minority 
populations and the statistics we are seeing, particularly 
Hispanics which shows the lowest frequency.
    Gen. McCaffrey. And one of the highest expenditures I might 
add.
    Mr. Mica. Again, my question is we need some mechanism to 
change or some other way to get to that affected population.
    One of the other concerns is you presented the indicators 
of success in 12 to 17 year olds--inhalant use down, cocaine 
use down, marijuana use down. I pulled the CDC records and this 
is from 1997-1998, ``Youth Risk Behavior Trends,'' it does 
assess this every 2 years. In fact current cocaine use, if we 
take 1997-1999, went from 3.3 to 4 percent. Maybe you can 
provide the subcommittee with an explanation or maybe a more up 
to date analysis of what is happening. In the cocaine use 
specifically, this shows an increase among the youth.
    Would you like to respond or provide us an answer?
    Gen. McCaffrey. I think probably it would be useful if we 
sat down and wrote you an answer. The CDC report, the bottom 
line is, 1991 to 1999 and our statement tracks the last 2 
years.
    Mr. Mica. I have 1997 and 1999.
    Gen. McCaffrey. They are two different studies. I can't 
respond.
    Mr. Mica. If you could look at that because we are very 
concerned.
    The other thing that concerns me in conducting the hearings 
around the country is inhalant use may be down and marijuana 
may be down in these populations. We are seeing an absolute 
incredible explosion in things that aren't even on these 
charges--methamphetamine.
    I think they told us in Dallas in the last 2 years, 1,000 
labs had been busted. We were in Iowa 2 weeks ago and 800 labs 
for production of this stuff--we didn't even have method 
figures.
    In my area, we held a hearing on club drugs, ecstasy, GHB, 
all of these new designer drugs which are absolutely exploding 
among young people.
    Gen. McCaffrey. Steroids and performance enhancing drugs as 
well.
    Mr. Mica. Yes. Are we keeping up with the problem. I am 
very convinced what we are doing is necessary but are we 
keeping up with what is happening with our young people.
    Gen. McCaffrey. There is no question the drug threat our 
children face is dynamic. It is not today what it was 10 years 
ago or 5 years ago. Drugs like GHB or PCP, methamphetamines, 
high purity heroin, I would almost term them new drugs. If it 
is 6 percent purity, you have to inject it; if it is 50 percent 
purity, you can stick it up your nose which is why kids are 
dropping dead in Plano, TX and Orlando, FL and other places.
    We also have to change our prevention media campaign to 
take into account those dynamics. It doesn't happen everywhere 
in the country at the same time. There is not a national drug 
problem. There are only a series of community drug epidemics, 
so we have to shape the message in Hawaii to be quite different 
than the one in Orlando.
    Mr. Mica. These charts were provided to us by the 
Sentencing Commission. It shows 1992 with crack in yellow. This 
is to 1994, 1995 and methamphetamine is not even on the chart 
in the beginning and we get down to 1999, we have an incredible 
increase in crack and methamphetamine that just about covers 
the whole Nation. It is new drugs that are out there. Is the 
program effective in targeting these new drugs is my question?
    Gen. McCaffrey. And I think the answer is yes, we are 
taking into account the evolving drug threat. We have new ads 
coming out on ecstacy in August. The Web site initiative 
clearly gets to that kind of problem. We are trying to provide 
feedback to the entertainment industry so they are aware of the 
new evolving threat. We have a public information campaign 
going on and we are creating methamphetamine ads which will be 
on the air.
    Crack use is probably not up, except in a few localities. 
Methamphetamine has spread dramatically from a California-based 
drug threat to now almost the dominant drug problem in the 
Midwest, the far western States, Hawaii and Georgia. It is 
spreading.
    We do have a methamphetamine strategy. We have updated this 
strategy. We have resources and research and education. We have 
law enforcement initiatives. We are going to try to do to 
methamphetamines what we didn't do to cocaine in the 1980's 
when it devastated America and left us with 3.6 million chronic 
cocaine addicts. We are going to try to make sure 10 years from 
now, when my daughter is the drug policy director, we won't be 
looking back on this era and saying we ignored it for 5 years 
and it got out of control.
    Mr. Mica. There has been controversy over the editing and 
reviewing of TV scripts before they aired. I would like to know 
your response to the question if they were reviewed by the 
White House prior to airing?
    I also understand you are on the verge of publishing new 
clarifying guidelines on the media match component of the 
campaign. Maybe you could provide the subcommittee with the 
status?
    Gen. McCaffrey. I tried to address it during my opening 
statement. I have a chart available. We have already published 
new pro bono match guidelines. We sent them out to the industry 
for comment. We are preparing to send copies of these revised 
guidelines around the country to our stakeholders. They are on 
the Web. I want to make sure we listen to our stakeholders and 
we can evolve these further if there are different viewpoints. 
So far they have passed muster with the people they went to.
    I think the only thing I would say that we have clarified 
is to ensure there is no question in the minds of producers and 
writers--that there will be no decision by Ogilvy Mather on 
granting pro bono matching credit to a program content until 
after it has been aired. That should be the assumption prior 
to, as well as following, publication of these revised 
guidelines.
    I think it was very helpful, the uproar that followed the 
inaccurate reporting on this issue.
    Mr. Mica. I will yield to Mrs. Mink at this time.
    Mrs. Mink. I am interested in the ad campaign you were 
discussing. What was the major criticism in the way that it was 
handled which prompted you to put out revised guidelines?
    Gen. McCaffrey. I think one of the problems was that we 
have two things we are trying to do. One is sort of a 
mechanical process. You want to comply with the law and grant 
matching credit. It was 15 percent last year and you want a 
mechanism to do that. There has to be some filter. Is it 
science-based. It has to be clear that Ogilvy Mather, the 
contractor, will do that in accordance with published industry 
standards. That has to be acceptable to the creative people of 
America.
    Then you have a second thing you are trying to achieve. The 
Congress gave us more than $600 million last year to fund the 
National Institute on Drug Abuse, so we want to make this 
information available to a writer, producer, director so they 
can be better informed on how to craft their own messages about 
drugs. That means NIDA has to continue as the Department of 
Defense does to provide feedback to the creative industries.
    We have them separated and we have a published document now 
that hopefully will clarify that.
    Mrs. Mink. It was the involvement of the Government in 
assessing whether to grant them that exception, was it not. It 
was not a criticism of Ogilvy in terms of their professional 
work but it was the insertion of the Government?
    Mr. McCaffrey. Right and that part seemed to be completely 
overstated. There was no government manipulation of scripts. 
That just wasn't happening.
    Mrs. Mink. Now that you have changed the guidelines, how do 
you protect against that in the guidelines?
    Mr. McCaffrey. I think saying no one will review matching 
credit until after it has been shown is a healthy thing. I 
think when you read the guidelines, it says the science-based 
feedback is separate from the process of granting pro bono 
credit. That is a good clarification. I think the fact the 
scrutiny was brought to bear on the subject is more than 
appropriate.
    Gen. McCaffrey. I might add to get a little balance with 
this, we have a pretty good working relationship with the 
television industry and the print media in America. They 
weren't over here raising cain about this. ABC testified in 
front of Congressman Kolbe's committee, their TV executives 
did, about the program matching content. He called a hearing 
specifically on this issue and they testified saying it is OK.
    I think what happened was the way it was reported 
initially, on a Friday, of a long weekend, without much news, 
talking about a secret program, government money buys industry 
compliance. That was not what was actually happening.
    Mrs. Mink. It is exactly that point that gives me some 
concern because I had come to the conclusion reading those 
discussions that this was a program that was conducted 
completely in accordance with the standards of the industry. 
Now you are saying, we are reacting and we have new guidelines. 
So that is the reason for my question. Why change the 
guidelines if there was nothing wrong in the first place?
    Gen. McCaffrey. I think the guidelines we published are 
helpful. I think the fact we won't review again until after it 
airs makes it quite clear. There is still the concern on the 
part of many, does the fact you are getting matching guidelines 
credit back into the creative process. I think the creative 
industry would say no, that is laughable. They don't want 
government interference in a free and open and creative process 
and I think we feel the same way.
    Ms. Mink. On the methamphetamine issue which is very 
critical in my State, you said earlier you are developing a 
strategy to attack this new crisis. Can you elaborate on what 
that strategy is in terms of the media campaign to reach the 
constituencies affected, particularly the children?
    Gen. McCaffrey. We have a strategy. In 1997, Tom 
Constantine, of the DEA really got it rolling. We brought in 
the whole country's law enforcement people. We tried to learn 
about this horrifying thing that was happening in front of us. 
We then had a regional conference in California, which is where 
the problem was the worst, to learn what California authorities 
thought was happening. We had Senator Dianne Feinstein and 
Attorney General Dan Lungren there.
    Then we had a national methamphetamine conference in Omaha, 
NE following which Janet Reno and I produced the national 
methamphetamine strategy. We had a new law passed in Congress 
that described what was against the law. A year later, I 
revised the national methamphetamine strategy.
    There is a prevention component, an education component, a 
law enforcement component.
    Mrs. Mink. I am referring to specifically the media 
campaign requirements that need to be changed because of this 
new crisis. How are you changing it, what directions must the 
media take in order to specifically address this audience?
    Gen. McCaffrey. Two things. One is the media campaign--in 
many cases when you look at the message, the six communication 
strategies--including parental effectiveness, personal 
consequences of drug abuse--when you look at what we are trying 
to achieve, that message doesn't necessarily talk to a apecific 
drug but drugged behavior. So I think the general campaign has 
enormous consequences on, whether it is meth or MDMA.
    We are also specifically developing methamphetamine ads, 
not just on television and the radio and print media but also 
inside the DARE Program, which has 26 million kids involved in 
school-based prevention activities. In every one of these 
areas, you will see a prevention education message.
    We are going to the medical community, we have written op-
eds in newspapers, so it is pretty multifaceted. We are trying 
to educate America on this new problem.
    Mrs. Mink. If the measure of success of the media campaign 
is achieved by a diminution of the addiction to 
methamphetamine, and that doesn't occur in the next year's 
assessment and so forth, then you have to conclude that the 
media campaign is not reaching the community affected. That is 
what concerns me because there is this rising crisis and 
nothing seems to stand in its way in becoming even greater. In 
my community, I don't see any strategy that is specifically 
directed to this particular drug and its increased consumption 
in my State.
    Gen. McCaffrey. Let me pull together some thoughts about 
Hawaii and what you should see now and in the coming years on 
the meth strategy. I can assure you your law enforcement people 
are already aggressively confronting the issue. There are Web 
sites to educate yourself about methamphetamines in six 
languages--Chinese, Vietnamese, Cambodian, Korean, Spanish and 
English. The ecstacy radio ads will be out in August. The DARE 
Program will face up to this issue. So you will see a 
prevention education, law enforcement consultation.
    We have new laws on the control of precursor chemicals, the 
pharmaceutical industry is working with us in a very positive 
manner to shrink wrap defredrin tablets. DEA is aggressively 
going after pharmaceutical houses that misuse their economic 
opportunity to sell hundreds of thousands of tablets to some 
storefront operation. We do think we are coming to grips with 
it.
    The two major meth-producing nations on the face of the 
Earth from our perspective are Mexico and California--and both 
of those we are targeting. The Mexicans are horrified at this 
thing also. So we have a huge problem, no question. This is the 
worst drug that ever hit America, bar none.
    Mr. Mica. Yield now to the vice chairman of the 
subcommittee, Mr. Barr, the gentleman from Georgia.
    Mr. Barr. I am also concerned about methamphetamine. As a 
matter of fact, today in the Judiciary Committee we are taking 
up the Methamphetamine Antiproliferation Act which has some 
problems because it contains some extraneous provisions that a 
number of us are concerned about.
    What I hear from the folks down in Georgia, particularly 
out of the Atlanta office is not that we need new laws, we just 
are not enforcing the existing laws. I don't speak primarily 
about the drug laws themselves but problems with INS and what 
seems to be an unwillingness, given the prevalence of the 
methamphetamine problem involving illegal aliens, particularly 
in the Georgia and Atlanta areas from Mexico, to work closely 
and aggressively with DEA and our other law enforcement 
agencies in partnership with INS to use our drug and 
immigration laws to get these people out of our communities.
    That is something I don't know the extent to which you can 
work on but I hear about that on a fairly regular basis from 
the law enforcement folks, including DEA in the Atlanta area. 
Any help you can be in getting INS to be more of a partner in 
this would certainly be appreciated.
    Is the President firmly committed to this youth drug 
strategy? The reason I say that is as the chairman indicated, 
the times in which we saw a significant and sustained decrease 
in youth use of drugs was when we had President Reagan and Ms. 
Reagan out there very, very vocal on a regular basis talking 
about the Just Say No Programs. In the public's eye, this was 
obviously an important part of that administration's agenda.
    That continued with President Bush who as Vice President 
was very active under President Reagan in getting that antidrug 
message out.
    I look back over this administration, which has been in 
office almost 8 years now and you could count on less than the 
fingers on two hands the number of times this President has 
spoken out on this issue. I don't know if he prefers to do all 
his work outside the public eye, whether he really is committed 
to this, how many times you have met with him personally on 
this, but I suspect we are going to continue to see these 
problems by the tremendous efforts by you and the DEA folks. I 
have tremendous regard for both of your organizations.
    We seem to have a President that has a funny way of showing 
concern about this problem, by not talking about it. Do you 
meet with the President on a regular basis to discuss this? Is 
he engaged with it? Is he firmly committed to it and what are 
some of the indices of that if he is?
    Gen. McCaffrey. Written into the law, and it was revised 2 
years ago, I am a nonpartisan actor in government, that I am 
forbidden under the law to take part in electoral politics, I 
am not registered with either party and I didn't ask for this 
job. I took it because I felt it was an obligation, and because 
my dad told me to do it.
    Having said that, I would tell you unalterably the 
President of the United States has backed his team. It is a 
team effort--Janet Reno, Donna Shalala, Dick Reilly and I are 
sort of the heart and soul of the effort. In the 5-years I have 
worked this issue, from fiscal year 1996 to fiscal year 2000, 
the budget went up from $13.5 billion to $19.2 billion. We 
increased the program on prevention education by 54 percent. We 
increased our drug treatment dollars by 32 percent. The 
research budget went up 36 percent. We took the drug courts and 
increased them from 12 to more than 750. We took the media 
campaign from an idea that Jim Burke and I had over a table and 
we are now in to our third year of a $1 billion advertising 
campaign. By the way, it is working.
    The President's personal commitment has never been a 
question in my mind. He signs all of our documents. I brief him 
on it. His OMB Director and I have choking fights every year 
over the budget. I automatically appeal to the President and 
every year, I have gotten more money in prevention, treatment, 
research and so forth.
    I think the team effort is there. I think the Congress of 
the United States voted for all this money, so there has been 
bipartisan effort from this committee and others--Mr. Kolbe, 
Mr. Hoyer, Senator Campbell and Senator Dorgan have backed us 
on what we have tried to do. I am extremely proud of the team 
effort.
    Mr. Barr. I don't take issue with that. It is a team effort 
but when I look back at the two prior administrations and the 
high profile each one of our prior Presidents gave to this 
issue in terms of their public pronouncements and their 
visibility, which is an important part of it, I see why we are 
talking about a media campaign and the perception of 
engagement. The perception of caring can be very important. I 
just don't see that component of it.
    If you could go back to the issue you talked with Mrs. Mink 
about, the methamphetamine strategy, is a part of that going to 
be some recommendations for increasing the Immigration 
Service's real life, actual on the street commitment to working 
with DEA as opposed to seeming to thwart their efforts in our 
communities to work the methamphetamine problem as it relates 
to illegal aliens?
    Gen. McCaffrey. I wouldn't know why you would characterize 
that problem in that manner.
    Mr. Barr. It is what I hear from people. Perhaps because of 
my background as a U.S. Attorney I hear from these people and 
they let me know how things are working. These are folks at the 
working level in DEA and they express tremendous frustration.
    Gen. McCaffrey. I think there is no question we have a huge 
amount of money flowing into the southwest border. We are 
trying to work in cooperation with Mexico, we have increased 
fencing, low light TV, increased the size of the border patrol 
from 3,000 to over 7,000. In my view the border patrol ought to 
be more than 20,000 professionals who speak Spanish, who are 25 
or older, fully trained, mature women and men, so we have a lot 
of work to do.
    Congress has finally given us the tools so that the U.S. 
Customs Service can have the intelligence and the nonintrusive 
inspection technology to protect the American people in the 
coming years. It is going to take a long time to do this. We 
have a huge open border between Mexico and the United States. 
That is good. There are nearly 100 million Mexicans down there, 
they are our second biggest trading partner. This isn't North 
Korea, these people are part of our culture. That is all well 
and good. Now we have to find ways to work on respectful 
cooperation to enforce the law.
    I agree with your concern and we have to give the Federal 
agencies the resources they need to do their job. I think we 
are moving in that direction but it is going to be painful 
work.
    Mr. Mica. Mr. Cummings.
    Mr. Cummings. I am so pleased that Congressman Barr and I 
do agree on something and that is that we have a tremendous 
regard for you. I have said that all along. I want to say I 
told you so but I am not going to say that.
    This methamphetamine problem isn't an immigration problem. 
Can you show me the map again? It looks like it is all over the 
place, it is not just on the border. Can you comment on that? I 
am confused about what Mr. Barr was saying.
    Gen. McCaffrey. I think the meth problem, probably in the 
addiction sense, is the worse drug we have ever seen. What it 
does to brain function and Dr. Alan Leshner can provide you 
with some pretty decent studies. One moderate dose or a year of 
fairly low level dosage rates may do irreparable harm to 
neurochemical function of the brain.
    From the law enforcement perspective these people turn 
paranoid, start tweaking, their personality unravels, they get 
emaciated, their teeth rot and it is unbelievable what meth is 
doing to humans. It is happening Thailand, China, Japan, not 
just the United States. This started in California and used to 
be just a biker, gang thing. Now it is young White males in 
beautiful western States and rural communities in the midwest, 
Georgia and beautiful Hawaii.
    The couple of thousand labs taken down in this country last 
year, a couple of thousand mom and pop, Bevis and Butthead 
idiots making methamphetamine in their hotel room, in a 
warehouse, leaving it in the rug, pouring it down wells, in 
streams. They get the recipe off the Internet, buy the 
materials which are common precursor chemicals, hydriatic acid, 
red phosphorous, ephedrine, with consequences that are 
devastating.
    Where is it being made? Is this a Mexican problem? There is 
a lot of Mexican organized international crime involved. Mr. 
Barr is quite correct. We have to work strongly with Mexico--
the Amescua brothers, the gang, this criminal organization in 
northwestern Mexico is responsible for a good bit of it.
    There are four counties in southern California that may 
produce half of all the methamphetamine in the United States 
but there are labs everywhere. There are labs now in rural 
Georgia, producing a couple of ounces a day. People rotting out 
their noses. Children are in the places where it is being 
cooked and being exposed to these fumes. Never mind the 
paranoid behavior of their parents who are making the drug and 
using it.
    DEA has gone aggressively after them and so have a lot of 
the State police. GBI is doing extremely well. I think it is 
organized, we are moving ahead. We do require a better 
prevention media campaign strategy targeted on this drug 
specifically, along with others now--ecstacy, MDMA. A lot of 
our kids don't think ecstacy is dangerous. They simply think 
don't drink booze, drink a lot of water, you will be just fine.
    We think we are going to raise a generation of children 
with high vulnerability to depression if we don't persuade them 
to not use ecstacy.
    Mr. Cummings. You showed us those ads. Why did you show us 
those ads?
    Gen. McCaffrey. The girl power shows you we have incredibly 
creative media. That ad, I love. We have a 60 second version, a 
30 second version, a version on radio. We are trying to remind 
everyone the drug problem isn't unique to minorities, it isn't 
males, it isn't city people, poor people, crazy people, it is 
your children, whoever you are. That includes our girls.
    Mr. Cummings. When I saw that ad, I couldn't help but think 
about the Just Say No campaign but here we were saying, just 
say yes. I wrote down--future, hope, dreams, power, self love, 
healthiness, woman power. Just from watching that little ad.
    It seems there are two different types of ads. Some say 
this is what is going to happen to you.
    Gen. McCaffrey. Negative consequences.
    Mr. Cummings. Another says you have a lot to live for. Are 
we going more in one direction than the other?
    Gen. McCaffrey. It is probably worth having another hearing 
in September when we get the next wave of data out of NADA and 
Westat Corp. When you watch what Ogilvy Mather and Fleishman 
Hillard have done with this, it is really impressive. We have 
six communication platforms we are working. We are flighting 
these ads in chunks of 6 weeks, so wherever you go, we are 
there with a similar message during the same time period.
    We are doing the concept of branding which has tremendous 
power. One of those ads I showed you, the first one, ended up 
with what is your anti-drug? This generation, young people, 
personal choice, what do you want your anti-drug to be? The 
answer will be opportunity.
    Mr. Cummings. As a Congress, what can we do? Do you think 
we are doing what we are supposed to do to be supportive of 
your efforts? I know you catch a lot of heat but I think you 
are doing a great job. I say that anywhere, I don't care where 
I go. I want to make sure we are doing what we are supposed to 
be doing to support your efforts. Is there anything you need 
from us that is reasonable that you really need that you 
haven't gotten?
    Gen. McCaffrey. I actually think Congress has been 
tremendously cooperative, I have learned a lot coming over here 
and listening to Rob Portman, Dennis Hastert, Steny Hoyer, you, 
others, Senator Campbell, Orrin Hatch, Joe Biden. You have 
given us significant resources and with some exceptions, it 
seems to me you have given me broad gauged guidance to go out 
there and do this job. It is working.
    The only thing I might caution you is that this is not a 
trick campaign, this isn't a Clinton administration effort. 
This is a 10-year struggle for the future of our children. So 
you have to let this thing bite in, let us have some constancy 
to it. Let us work this problem and I would say about 2 years 
out, I would be astonished if you are not going to see dramatic 
impact over the dollars you put into this.
    You put under $200 million in and we spent $36 billion on 
prisons last year. If I am modestly effective with this, and we 
are going to do better than modestly, you are going to like 
what you see in the coming 5 to 10 years.
    Mr. Mica. Yield to the gentleman from Indiana, Mr. Souder.
    Mr. Souder. A couple of different things. One is that many 
of us understand that there isn't going to be an instant 
solution and that the data isn't going to drop suddenly. We do 
want to see the methamphetamine data because we are hearing 
that all over the country. In my district, the problem is 
starting rural and moving urban. We may see a drop in one part 
of the program which may not be attributable so much to the 
anti-drug campaign as to shifting of types of drugs. We have to 
make sure that is occurring too.
    I am not looking for solutions that show 10, 20 percent 
drops every year because part of our problem with the drug 
question is that we keep acting like they are silver bullets 
and you have said many times, there aren't silver bullets. It 
has to be sustained, consistent and over time.
    What would undermine this tremendously is that every year 
we show these big drops when in fact on the street we are still 
seeing arrests and the problems in our hometowns. So don't try 
to overimpress us, make sure you get a blend of statistics and 
I understand your media problem with it.
    The biggest problem in my district still remains, and will 
probably continue to remain, the marijuana use in our country. 
In 1997, you clearly stated in front of Congress it was the 
administration's position that State legislation on medicinal 
marijuana is legally inoperative because it is contrary to 
Federal law. Is that still your position?
    Gen. McCaffrey. I have gone through a couple of tutorials 
from the Department of Justice to try to make sure I understand 
fully the situation. The bottom line is Congress told the 
States they could legislate in this arena. So the States 
clearly have the authority to set penalties for drug law 
violations and these are not conflicting, State and Federal 
functions.
    The current medical marijuana laws are deemed to not be 
operative when it comes to the Federal law. There it is. We 
have Federal law that says you may not grow, possess, sell or 
use marijuana. We have FDA and NIH laws that say, doctor, if 
you want to prescribe a drug, you have classes of medicines, a 
pharmacy, clinical trials and smoked marijuana isn't part of 
that process.
    THC is available in a pharmacy as Marinol. So, the bottom 
line is right now, we don't have a conflict with Federal law. 
It is operative.
    Mr. Souder. In 1997, you said the Federal response had four 
goals, preserving established scientific, medical process for 
determining safe and effective, which certainly the State laws 
don't, protecting our youth, which for example, the California 
laws clearly don't; upholding existing Federal law, which the 
California law certainly doesn't and preserving drug free work 
places.
    It has been all over national TV, these pot clubs and other 
things. I just wondered if there is any Federal response.
    Gen. McCaffrey. It is a strange situation. I share your 
concern. At one point, we had 36 States that passed laetrile 
laws demanding that ground up peach pits be seen as an 
available useful medication for prostate cancer. This whole 
thing was laughable, it was nonscientific.
    I am not sure what the way out is. I would suggest one 
thing. I think this media campaign, one of the many benefits of 
it, is it is reminding parents in America you actually don't 
want your children involved in drug taking behavior, medical or 
any other. You want to try to keep your youngsters not smoking 
cigarettes, smoking pot, abusing alcohol, never mind sticking 
heroin up your nose and dropping dead. I think that is how the 
American people feel.
    Mr. Souder. I know your frustration too because you have 
expressed it before but when George Soros and others put 
millions of dollars into calling illegal narcotics medicine it 
does not help us when we are trying to do an anti-drug campaign 
through the U.S. Government. Yes, we are trying to counteract 
that but we need public and private officials speaking out all 
over this land or we undermine the very thing we are trying to 
fund.
    I think many of your ads have been impressive and I know it 
is difficult. I have one suggestion I would like to encourage 
you to look at. We have seen the difficulty. Apparently the 
rule is that it is OK for liberals to insert their messages in 
television, whether through the writers, producers or general 
philosophical attitudes but the second a message is a 
conservative anti-drug message, all of a sudden it is 
censorship or manipulation. I believe there has been a lot of 
unfair publicity about it even though we are all uncomfortable 
with it being tied to the money.
    The networks ought to be doing this type of thing 
voluntarily. It shouldn't have to be tied to whether or not we 
are doing advertising or whether it is part of their mix to get 
dollars from the networks. It is something they ought to be 
doing in the course of their responsibility.
    Gen. McCaffrey. I think they are. One of ABC's answers was 
minus the mix, they were already exceeding their target. ABC 
has not walked away from program content that is science-based 
and has an anti-drug message.
    Mr. Souder. Rather than having Congress prescribe this, one 
of the things I would like to see you undertake in a scientific 
way rather than us having to wait for the political way is some 
sort of aggressive report card. I understand what Congressman 
Cummings was talking about, a positive as well as negative 
message and too often we only focus on the negative. We need to 
have the positive messages in it.
    Just like we are trying to stimulate a positive from the 
networks, we need a report card for abuse of our children 
through bad messages coming through the media.
    Gen. McCaffrey. We have one. We paid for Mediascope to do 
analysis of home videos, television, radio, music.
    Mr. Souder. I have heard you testify to some of that but as 
a monthly clear thing on this show, in this effort in the 
media, watch as parents and the general public and hold a 
direct accountability for the media, not just to pay 
advertising and give a positive but there is a negative just 
like we do on countries. We ought to be having a narcotics 
report on our country like we do on Mexico and others and 
Central and South America. I would hope we would have the 
carrot and stick.
    As a supplement to that, in the Olympics, you referred to a 
lot of what we have done. I wonder if we have a strategy for 
the Olympics, where clearly we have had abuse of other types of 
narcotics, possibly even a Disneyworld-like thing after some of 
the events where some of these clients of Fleishman Hillard and 
Ogilvy Mather, not just with taxpayer money, with some of their 
ad dollars with some of the winners saying, ``I did it, I did 
it clean. I am healthy and more better for it'' at a time when 
many young kids will be watching.
    Clearly we don't have the ad dollars to buy lots on the 
Olympics but here is a place where both the networks and the 
advertisers could do us a tremendous favor. I wonder if you 
have done anything regarding the Olympics at this point?
    Gen. McCaffrey. We have a terrific program working with the 
International Olympic Committee and with the U.S. Olympic 
Committee and the Salt Lake Organizing Committee. I think it 
involves a series of things and I would be glad to update you.
    We did get some money from Congress and we are supportive 
of the setup of the U.S. Antidoping Agency which Frank Shorter, 
our famous gold medalist, is now heading as chairman of the 
Board. We also stood behind the beginning of the Worldwide 
Antidoping Agency, the first meetings of which took place in 
Lausanne. I am a delegate, part of the governmental oversight 
international body to keep them on track trying.
    A huge problem here in this country is we had hundreds of 
thousands of young people, around 300,000 last year, who were 
using performance enhancing drugs. We have also worked with the 
sports community in general in the United States. We have a 
problem. We have professional sports where in some cases there 
is no common standard what drugs are outlawed and what are the 
testing requirements, and are they being enforced. Is andro a 
legal drug to be used? The Olympic Committees say no, 
professional baseball says yes.
    In the coming years, what you will see is the U.S. 
Antidoping Agency will publish standards of what drugs are 
illegal, how you test for them will protect athletes' rights, 
to make sure they are not vulnerable to false testing. We have 
to do better than the disgraceful performance in Nagano that we 
saw or in the Europe Grand Bicycling Race. We are spinning out 
of control. We are working and we are getting tremendous 
cooperation. The NBA said they would put in their contract no 
marijuana use.
    Mr. Souder. Thanks again for your leadership. You have been 
sometimes a solo voice taking the flack that many of us take in 
our districts but not on a national level. I want to thank you 
for your leadership. It doesn't mean we can't be critical on 
some subpoints and try to work to make it better, but overall, 
we thank you very much for your leadership.
    Mr. Mica. The gentlelady from Illinois, Ms. Schakowsky.
    Ms. Schakowsky. I wanted to followup a bit on what 
Congressman Souder mentioned in terms of monitoring the 
television and movies.
    It may be my imagination but it seems to me that more and 
more movies are showing people smoking and that it is 
associated with being cool, the rougher, tougher and cooler a 
movie is, the more smoking that goes on. I wonder considering 
if you want to talk about the largest number of deaths and 
illness caused by a substance, we are certainly talking about 
tobacco. Is there any monitoring and what we are doing in the 
media about the use of tobacco?
    Gen. McCaffrey. Tobacco specifically, the use of tobacco 
and alcohol to include under age youth which is against the law 
is not part of my legal portfolio. We did put it in the 
national drug strategy because that is a part, we said, of the 
general view of gateway drugtaking behavior. None of the 
appropriated dollars you give me are going on antitobacco or 
underage drinking. The matching component, we are doing, so we 
have the largest anti-alcohol underage drinking ad in history 
going but it is a matching component.
    The tobacco use by underage users, I am talking to in 
coordination with the group that manages the State Attorneys 
General money and the fund that was set up. They are out there 
with more money than we have totally. They have a huge amount 
of money. It seems to me it is $250 million. They are trying to 
sort out how they will go about this campaign.
    Ms. Schakowsky. You talk about science-based responses to 
the problem of drugs. Research done for SAMHSA indicates that 
after-school programs and alternative activity programs are the 
most effective way of preventing adolescent drug abuse. Yet it 
is my understanding that the Federal Government is spending 
about twice as much on TV ads than we are on after-school 
programs.
    I realize it is a multi-pronged approach we want to take, 
but do you think we should be investing more in after-school 
programs. The Children's Defense Fund estimates that about $5 
billion is needed to adequately address the need for after-
school programs.
    Gen. McCaffrey. Let me get the numbers. I agree to your 
central point. If you want to see success on any drug programs, 
you go to the Boys and Girls Clubs, the YMCA sports programs, 
the Elks youth programs. Children in schools are pretty safe, 
few drugs, little violence, little teenage sex, huge number of 
adults with college degrees who will love and care for them. 
The problem starts when they walk out the door. Our communities 
have to organize ourselves to deal with that subject.
    Part of that, the media campaign, is targeted on helping to 
create strong community, anti-drug coalitions. That effort is 
lead by Art Dean, the CADCO CEO, I would suggest the media 
campaign adds to that process.
    I agree with your central point. The media campaign has to 
shape the youth attitudes, shape adult mentor attitudes and add 
energy to community coalition formulation. It is a 
tremendously, highly leveraged behavior. We are talking 
essentially $185 million a year that gets to all of our 
children in America multiple times a week. It is unbelievable, 
almost eight times a week. It has to be a multifaceted program.
    Ms. Schakowsky. Let me ask a question about how we define 
success. I know you have stated in the past your drug strategy 
is based on hard data and promised measurable results in your 
performance, measures of effectiveness and pledge to reduce the 
number of chronic drug users by 20 percent by the year 2002.
    In your National Drug Control Strategy, 1999 on page 15, 
you say, ``At this point, no official, survey-based, government 
estimate of the size of the drug-using population exists.'' I 
am wondering without a baseline, without really knowing 
accurately what the universe is, how can we really measure the 
effectiveness of any program?
    Gen. McCaffrey. It is difficult. I would argue when we 
started this process, one of the biggest shortcomings was the 
lack of widely agreed upon scientific data. Most of these 
issues we work, international financial policy or highway 
construction, we argue the hypothesis, we don't argue the 
facts. In the drug issue that wasn't the case.
    We have put a lot of effort into trying to ensure we have 
first rate, scientifically valid data. If I remember there are 
five major, federally funded studies that have been going on 
many for years, Monitoring the Future, Household Surveys and 
they are surveillance systems, they watch what goes on.
    You have to know the study to say which population it gets 
at well and which ones are we less sure about. Household Survey 
doesn't go to people living under a bridge, so you undercount 
the 5 million chronic addicts. When you go to monitoring the 
future, you are talking a youth-based population and their 
attitudes.
    We do have pretty darned good data. That was the 1999 
strategy you are talking about. Here is the 2000 report that 
Congress required me by law each year to provide. This is the 
first one and it is not good enough but this is the first piece 
of paper where we say, here is what we think we are achieving. 
The numbers are getting better.
    Ms. Schakowsky. So you feel pretty confident when you say 
there has been a 13 percent decline in youth drug use, that is 
an accurate number?
    Gen. McCaffrey. We have a cluster of different studies, 
some of them first rate, others less so. The cluster is saying 
the message is being heard. The hard work by coalitions, the 
pediatricians of America, the TV ads. We think drug use and 
youth attitudes and parent attitudes and parent/child 
communication, that these variables are moving in the right 
direction.
    Ms. Schakowsky. Of that 13 percent, you do feel confident 
that you are able with some accuracy to attribute which of the 
various programs, be it advertising or other strategies, that 
are the most effective?
    Gen. McCaffrey. The creative process is a pretty rigorous 
one. Partnership for Drug Free America really organizes this 
for us. There are 200-plus advertising agencies and it is 
harder work now than it was 3 years ago because now they get a 
strategic message platform, you have to produce a message for 
that platform in Spanish by February that has to go through the 
Partnership for Drug Free America Creative Review Committee, it 
has to go to Ogilvy Mather, we do focus groups on it, we 
include the Annenberg School of Journalism. We test the ad.
    I end up approving these since I am legally accountable to 
you for spending this money in a sensible manner and then out 
they go. That has been hard work but I think Ogilvy Mather and 
their subcontractors and Fleishman Hillard have done a 
brilliant job. We have some first rate material. That is what 
you are seeing, third generation.
    We are on the Net in six languages, we are out there in 11 
languages in America, we have 102 different market strategies. 
The strategy in your State is quite different than 
Congresswoman Mink's. We are evaluating it. We have the numbers 
and we are going to show them to you periodically.
    Ms. Schakowsky. Let me just say that I certainly find the 
girl power ad very empowering and very exciting. I congratulate 
you on that.
    Mr. Mica. I don't see we have any other Members with 
questions at this point. We do have some additional questions 
we would like to direct to you for responses and we will 
include those in the record. Without objection, the record will 
remain open for a period of 2 weeks if that is acceptable to 
the minority for additional comments or material to be included 
as part of this hearing. Without objection, so ordered.
    We thank you again for coming today. We are sorry there are 
some controversial matters dealing with the program but we do 
want to make certain it stays on target, that we meet our 
objectives, that the Congress cooperates with your office in 
making this a success and we have a great deal at stake and a 
tremendous responsibility to the American people.
    I don't think there has ever been a challenge that I have 
personally faced and you have sometimes in the military that 
you have worked with in your career. It is easy to put together 
a program and a plan and execute it. I know in the private 
sector in business, I found the same type of approach works. 
However, we are dealing with something that is beyond anything 
I have seen and it is a personal challenge for me and I know 
for you. We appreciate your cooperation and will continue to 
work with you.
    We will excuse you at this time and we will call our second 
panel.
    Gen. McCaffrey. Thank you, Mr. Chairman.
    Mr. Mica. The second panel today consists of Dr. David 
Maklan, vice president of Westat, Inc.; Mr. Robert Hornik, 
professor, Annenberg School for Communication; and Mr. Dan 
Forbes, freelance journalist with Salon.com. We would welcome 
these three panelists.
    I would inform the new panelists this is an Investigations 
and Oversight Subcommittee of Congress, particularly of the 
Government Reform Committee and in that regard, we do swear all 
of our witnesses. If you will remain standing, I will swear you 
in.
    [Witnesses sworn.]
    Mr. Mica. We have a policy of asking our witnesses to limit 
their oral presentations to 5 minutes. Additional length 
statements or material will be submitted for the record upon 
request to the Chair.
    With those comments, I would welcome and recognize Mr. Dan 
Forbes for his comments and testimony.

 STATEMENTS OF DANIEL FORBES, FREELANCE JOURNALIST, SALON.COM; 
DAVID MAKLAN, VICE PRESIDENT, WESTAT, INC.; AND ROBERT HORNIK, 
         PROFESSOR, ANNENBERG SCHOOL FOR COMMUNICATION

    Mr. Forbes. Thank you for the opportunity to address you 
this morning.
    My name is Daniel Forbes. I am a freelance journalist have 
been doing so for approximately two decades.
    The National Youth Anti-Drug Campaign, the ONDCP's paid 
social marketing effort, has generated no small amount of 
controversy in the last 6 months. Writing for salon.com and 
elsewhere it is a controversy I have been able to observe close 
hand. I trust you will permit a few insights.
    A complicated program of Federal financial incentives 
rewarding anti-drug themes and some of the Nation's most 
popular sitcoms and dramas was initiated in the spring of 1998. 
This was prior to Congress actually asking for this sort of pro 
bono match. During the course of the 1998-1999 television 
season, ONDCP financially endorsed anti-drug motifs contained 
in specific episodes of numerous shows. Programs such as ER, 
Chicago Hope, Beverly Hills 90210, Drew Carey Show and Smart 
Guy freed up advertising time that the broadcaster owed to 
ONDCP.
    The networks were afforded the opportunity, should they 
choose, to sell that advertising time at full price to private 
clients. My initial estimates as published in salon.com valued 
the program at less than $25 million. ONDCP has confirmed that 
at $22 million.
    In late March, I also described a program of financial 
incentives that applied to several national, nonfiction 
magazines as well, operating on the same paradigm of rewarding 
or potentially rewarding anti-drug motifs.
    More recently, the agency has come under fire as folks are 
aware for the cookies inserted in the computers in a just 
released GAO report. I would submit the taxpayers should wonder 
where their money is going. I don't believe these figures have 
been disclosed.
    I was invited by the committee and took my obligation 
seriously to present new material, not to reiterate what I had 
said in the past. Of the initial year's funding of $195 
million, several sources have told me approximately only $120 
million was actually spent on advertising the first year. In 
the subsequent 2 years has not risen far above $130 million for 
the total media by that annual figure and has almost certainly 
remained below $140 million.
    I believe this is new information. For its part, the lead 
ONDCP advertising agency, Ogilvy and Mather Worldwide is said 
to enjoy typically $18 million or more annually of taxpayer 
funded income. Some approximately $10 million is designated as 
covering O&M's overhead cost and $8 million is designated for 
staff salaries. That means that $10 million of overhead, which 
is described to rent, health benefits, retirement and the like, 
is paid for by the taxpayers. Therefore, income from other 
private Ogilvy clients does not have to meet that obligation 
and falls directly to the firm's bottom line. As I was told, 
``This makes every other Ogilvy account more profitable.''
    ONDCP financial year 2000 operating plan places O&M's total 
annual budget at $166 million. Of that, $21 million is listed 
as ``labor production.'' Several million of that can be assumed 
to be advertising production costs and Ogilvy absorbs much of 
the rest in its own coffers.
    The American people might also wish to know that according 
to ONDCP's fiscal year 2001 budget summary, the media campaign 
is listed under the special forfeiture fund, ``All resources 
are 100 percent drug-related.'' As I read that, the media 
campaign paves the way for public acceptance of more 
enforcement and thus more asset seizures which in turn 
financing the following year's media campaign. If I am reading 
this incorrectly, I welcome correction.
    The question arises how effective is this advertising at 
curbing drug use? Congress has stated its belief that the 
campaign ``performance measures should capture the use of all 
categories of drugs as well as changes in attitudes.'' The 
House has stated its expectation of ``concrete results by the 
year 2001. The Committee will closely track this campaign and 
its contribution to achieving a drug free America. The 
Committee anticipates future funding will be based on 
results.``
    With a skeptical Republican majority, Congress breathing 
down its neck every year, ONDCP is under considerable pressure 
to show results in the various annual, national drug use 
surveys. Mr. Alan Levitt, the ONDCP campaign media director 
told me when I interviewed him in the spring of 1998, ``Unless 
we show results that it is working, I don't know if we will 
have more than two or 3 years.'' This gets to the point that 
the Congresslady from Illinois was questioning Mr. McCaffrey 
on.
    Move forward 2 years, referring to 1999, half a year after 
the campaign was launched nationally, not the requisite 2 or 3 
years that they anticipate to have an effect, Mr. McCaffrey 
stated 2 days after the Salon story broke that ``Drug use by 
America's youth declined 13 percent. We believe this decrease 
is due in part to the higher profile the media campaign has 
brought to the problem.'' Three days later, Mr. McCaffrey's 
assertion was even more unabashed, ``Most importantly, as 
reported in August 1999, youth drug use is down 13 percent.'' 
He appeared on CNN Talkback Live and stated, ``I have to 
underscore that I think the programmatic has been enormously 
effective and helpful in creating that 13 percent reduction.''
    The recent data on slipping teen drug use is awkwardly 
premature. Mr. McCaffrey told the United Nations in June 1998, 
``Experts advise that we will not see significant behavior 
changes among our audiences for at least 2 years.'' If the 
campaign was rolled out in 1998, 1999 was a scant half a year.
    A Department of Health and Human Services report shows 
lower drug use in 1998, etc. The report adds, ``Real declines 
in use far, far in advance of any anticipated supposed effect 
of the ads underscores the vagaries of drug use data.''
    Let me go to a second revelation here this morning as will 
be discussed in an upcoming issue of Salon. ONDCP's paid media 
campaign was engendered, the belief from this quarter, at least 
in part, let me stress in part, at a meeting in Washington 
convened by Mr. McCaffrey several days after the passage of 
medical marijuana voter initiatives in Arizona and California 
in November 1996.
    Attendees at the November 14, 1996 meeting in Washington 
included the Director, members of the senior staff, Thomas 
Constantine of the DEA, some dozen law enforcement personnel 
from Arizona and California and eight representatives of drug 
policy organizations that endorse ONDCP's approach.
    I have obtained two separate copies of notes summarizing 
the remarks of attendees at this meeting. The contemporaneous 
notes surfaced as part of the discovery process in the Federal 
lawsuit Conant v. McCaffrey, U.S. District Court, Northern 
District of California. This suit seeks to permit California 
doctors to discuss medical marijuana with their patients.
    These are contemporaneous notes written in a rather clipped 
parlance but given that description of their diction, a 
district attorney from Arizona stated, ``Even though California 
and Arizona are different propositions, the strategy proponent 
is the same. It will expand throughout the Nation if we don't 
all react.'' React indeed they did. Congress passed the initial 
funding for the media campaign less than a year later.
    Most trenchant perhaps were the remarks of two 
representatives of the Partnership for a Drug Free America, 
Richard Bonnette, PDFA's president, and Mike Townsend, 
executive vice president, as well as Dr. Paul Jellanick, senior 
VP at the Robert Wood Johnson Foundation. The Johnson 
Foundation is a major funder of the Partnership for a Drug Free 
America.
    In summary form, the notes read as follows: ``Mr. Townsend: 
California parents, tell them what the national partnership, 
i.e., the Partnership for a Drug Free America, is concerned 
about what they can do about spending money to influence 
legislation. What can the Partnership for a Drug Free America 
do to spend money to influence legislation.''
    Prior to that an unidentified participant asked, ``who will 
pay for national sound bites? The campaign will require serious 
media and serious money.'' This is at a meeting to address the 
passing of the marijuana initiatives in those two States.
    Jim Coppel, whose organization you have heard mentioned 
here, Community Anti-Drug Coalition of America, is quoted as 
saying, ``We need to go State by State, money to do media. CACA 
is trying this seriously. We need to frame the issue properly. 
Expose the legalizers as using the terminally ill as props.''
    The Partnership's Richard Bonnette stated, ``We lost ground 
one, no coordinated communications strategy, didn't have the 
media.''
    Most telling perhaps is this remark from PDFA's funder, Dr. 
Jellanick, ``The other side''--proponents of medical 
marijuana--``would be salivating if they could hear the 
prospects of the Feds going against the will of the people. It 
is a political problem.''
    Mr. Mica. I am going to have to interrupt, Mr. Forbes. Your 
time has expired. If you can begin to conclude and maybe hit on 
your major points. As I mentioned, if you have lengthy 
statements we will be glad to submit the entire statement to 
the record.
    Mr. Forbes. When Mr. Diaz of your staff invited me here, he 
indicated I would be the only person opposing the views of the 
rest of the panel. He said I would have the amount of time I 
needed to make my point, so I will endeavor to summarize my 
remarks.
    Mr. Mica. We will put your entire statement in the record.
    Mr. Forbes. I do need several more minutes.
    Mr. Mica. If you will go ahead and begin to conclude 
because I do want to give the other two panelists adequate 
time.
    Mr. Forbes. I would point out Mr. McCaffrey had at least 2 
hours. As I was told, I was the only person providing an 
alternative point of view, I would trust you might be 
interested in that. I will do my best to be brief.
    Mr. Mica. We want to be reasonable but I would ask you to 
please try to begin to conclude. We will take your entire 
statement and include it in the record.
    Mr. Forbes. ONDCP has denied influencing scripts stating in 
January, ``At no time during the process did it or any person 
affiliated with the media campaign suggest changes.'' Mr. 
McCaffrey stated here this morning there was no government 
manipulation. My article, Washington Script Doctors quoted both 
ONDCP consultants and the shows' producers on government 
alteration of an episode of the WB show Smart Guy. These 
specifics are never addressed.
    It involved the previously rejected script that was 
resurrected for the financial incentive program. ONDCP and its 
consultants offered ``a few dictates'' said the show's 
executive producer, Bob Young. One consultant who worked on the 
script notes that the substance abusing terms were changed from 
appealing characters to losers. ``We showed they were losers, 
put them in the utility room.''
    ONDCP's involvement in shaping this script is underscored 
by Alan Levitt's e-mail sent out in May 1999 alerting 
recipients to the show's airing. It reads, ``For your 
information, see Smart Guy. We worked a lot on that script.'' 
No force of law underscored the script doctoring. It was a 
financial incentive.
    I have much material here underscoring that point. Let me 
skip to my next point.
    After stating the programs would no longer be reviewed 
until after the ad aired, ONDCP contractors will continue to 
use a formula-based approach for the pro bono match credit 
evaluation. Indeed, this is continuing this spring's shows such 
as Cosby, Party of Five, King of the Hill, NBC's Saved by the 
Bell, etc., have been valued at many thousands of dollars.
    To my knowledge, there has not been an indication 
concurrent with the broadcast of these financial 
considerations. I would ask the committee the issue looms 
whether the networks are breaking the payola regulations. In 
fact, enforcement action is currently being considered by the 
FCC as to whether all scripts receiving financial consideration 
from ONDCP need to indicate that fact during the course of the 
broadcast.
    Is the American public receiving good value for their 
investment? The question arises how many of these shows would 
have run anyway? In the Washington Post in January, a CBS 
spokesman says all the shows we have were going to go on 
anyway. So I don't know what the problem is.
    In a Senate hearing in early February, ONDCP announced 
Viacom's VH-1 Behind the Music documentaries was valued to the 
tune of almost $1 million. Generally speaking, the rise of drug 
abuse and subsequent rehabilitation of rock stars is the sole 
topic of Behind the Music.
    All sorts of fudging occurs, cross promotional 
possibilities abound. For one ad meeting, ABC's matching 
obligation, a casually dressed Michael Eisner, Disney's CEO, 
stood in front of Cinderella's castle at Disneyland to urge 
parents to talk to their kids about drugs. We can imagine the 
response of some viewers at home. Oh, look, George or Betty, 
that nice man, I think he is the head of Disney, he certainly 
cares. If Johnny gets his grades up like he promised, let us 
take him to Disneyland.
    Rather than Disney having sold this spot match for the 
required 50 cents on the dollars, we can estimate it was sold 
for perhaps 70 cents on the dollar.
    Another issue is whether ONDCP broke the law by having Mr. 
McCaffrey appear on the Fox broadcasting nonfiction show, 
America's Most Wanted. The law clearly states no media 
campaigns are to be funded pursuant to this campaign, shall 
feature any elected officials or cabinet level officials absent 
advance notice of Committees on Appropriations and the Senate 
Judiciary Committee.
    ONDCP says the main goal is just to ensure accurate 
portrayals of drug use. According to its own report issued a 
few months ago back in January, ``Illicit drugs were 
infrequently mentioned and rarely shown in primetime 
television. In the few episodes that portrayed illicit drug 
use, nearly all showed negative consequences.'' Overall, teen 
viewers were exposed to very little illicit drug use and what 
little there was, did not glamorize drugs. I would say that the 
accurate portrayal is in place already.
    In a similar vein after disclosure of incentives for 
magazines, editors defended the practice saying that articles 
would have run regardless. The committee may wish to ask is it 
getting its money's worth.
    ONDCP has acted as a catalyst to various motifs that have 
some very positive interaction with parents and the like. In 
other cases, negatively valued themes reflect the social 
engineering that is more subtly manipulative and more chilling. 
Young characters are pressured to figure who bought the alcohol 
or marijuana to a party as on Smart Guy and Cosby.
    The fall issue of the Journal of Health Communication 
observes it is not the merits of a political argument that are 
important but rather the relative success of proponents and 
opponents in framing the debate. Edward Bernays, the 
acknowledged chief of the practice of public relations wrote in 
a book titled Propaganda published in 1928, ``If we understand 
the mechanisms and motives of the group mind, it is now 
possible to control and reinvent the masses according to our 
will without them knowing it.'' Referring to this as the 
``engineering of consent'' Bernays added ``Those who manipulate 
this unseen mechanism of society constitute an invisible 
government which is the true ruling power of our country.''
    That concludes my testimony. On a personal note, I had the 
honor of testifying before the Senate in February before 
Senator Ben Nighthorse Campbell's subcommittee. Remarkably 
enough, Senator Campbell told me I had ``done a service to the 
country'' in remarks after the hearing. My testimony does not 
currently appear on the Appropriations Committee Web site. I 
was told yesterday this would not be rectified. So much for 
honest competition in the marketplace of ideas.
    I trust that my testimony before this committee will not 
suffer the same fate.
    Thank you for your attention.
    [The prepared statement of Mr. Forbes follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.048
    
    [GRAPHIC] [TIFF OMITTED] T2752.049
    
    [GRAPHIC] [TIFF OMITTED] T2752.050
    
    [GRAPHIC] [TIFF OMITTED] T2752.051
    
    [GRAPHIC] [TIFF OMITTED] T2752.052
    
    [GRAPHIC] [TIFF OMITTED] T2752.053
    
    [GRAPHIC] [TIFF OMITTED] T2752.054
    
    [GRAPHIC] [TIFF OMITTED] T2752.055
    
    [GRAPHIC] [TIFF OMITTED] T2752.056
    
    [GRAPHIC] [TIFF OMITTED] T2752.057
    
    Mr. Mica. We will include, and you have our commitment, 
your entire testimony as a part of the record. Also, without 
objection, we will include in our record your Senate testimony. 
We want to try to be fair and give every side airing before us. 
We appreciate your testimony.
    We will withhold questions until I have heard from the 
other two panelists. At this time I am pleased to recognize 
David Maklan, vice president of Westat, Inc. Welcome, sir, and 
you are recognized.
    Mr. Maklan. I am David Maklan, vice president of Westat. We 
are responsible for conducting ONDCP's evaluation of the 
National Youth Anti-Drug Media Campaign. Accompanying me is 
Robert Hornik, professor in communications at the Annenberg 
School for Communication.
    To make clear our roles, Mr. Hornik has lead responsibility 
for study design and analysis and I have overall responsibility 
for contractor performance with particular focus on study 
operations.
    I would like to interject here that despite earlier 
comments, we are not here to present a position. Mr. McCaffrey 
wisely asked Alan Leshner and NIDA to take the lead in 
conducting an independent evaluation of phase III of the media 
campaign and that is indeed what we are trying to do to the 
best of our ability.
    From its inception, ONDCP believed that the evaluation was 
important to the overall success of the campaign and therefore 
included an evaluation component in each of the three campaign 
phases. Phase I was the 26 week case control pilot test 
implemented in 12 metropolitan areas across the country that 
focused on television ad awareness; phase II released the media 
campaign to a national audience in July 1998 with an objective 
of increasing the awareness of antidrug messages among youths 
and adults, obviously not stating the full case. Phase III 
initiated in September 1999 marked the full implementation of 
the media campaign.
    It is our task, the Westat-Annenberg Team, to determine how 
successful the media campaign is in achieving its goals for 
phase III. In doing so, we paid careful attention to the 
lessons and experiences of phases I and II and have used them 
and other sources of information to guide our design.
    While there are hundreds of questions that the evaluation 
will attempt to answer, there is one overarching question, 
whether observed changes in drug use or drug attitudes can be 
attributed specifically to the campaign. In my few remaining 
minutes, I will summarize the study design and Dr. Hornik will 
then focus on the discussion of how we plan to approach the 
measurement of media campaign effectiveness.
    From the start, we believe that data from three existing 
data sets were crucial to measuring prevalence of substance use 
and certain attitudes related to substance use. These are the 
National Household Survey on Drug Abuse that Mr. McCaffrey 
mentioned several times, Monitoring the Future, and the 
Partnership Attitude Tracking Survey. However, we also 
recognize that changes in drug use attitudes and prevalence 
rates by youth might be the result of many factors in addition 
to the campaign. Therefore, in order to make reasonable claims 
that the campaign was responsible for the change, our 
evaluation has to go well beyond the analysis of trends in 
existing data.
    Based on guidance from NIDA's expert panel, Westat's 30 
years of program evaluation and survey research experience, and 
the Annenberg School's communication research expertise, as 
well as lessons learned from the previous phases, we adopted an 
approach that differs in important respects from that used 
during the prior phases.
    First, our basic evaluation approach is to study natural 
variation in exposure to the media campaign. This means 
comparing groups with high exposure to groups with low 
exposure. To this end, we will look for variation across media 
markets, across time, within media markets at a single time, 
and across individuals. If variation in media exposure can be 
found, we will then determine whether there are any preexisting 
differences between the groups that might explain both the 
variation in exposure and any variation in outcomes. To this 
end, we developed theoretic models of media campaign influence 
which are summarized by the four figures attached to our 
written testimony.
    Second, the evaluation team developed the National Survey 
of Parents and Youth which emphasizes measurement of drug 
attitudes, exposure to the media campaign, family and peer 
variables, and a variety of risk factors. While NSPY will also 
attract change from 2000-2003, its principal purpose is to 
monitor the success of the campaign in reaching its target 
audiences and then convincing audiences to adopt desired 
attitudes, intentions and behaviors.
    NSPY has a number of features that are new or unique among 
national surveys in this field. First, it will generate semi-
annual reports on campaign status, the first of which is 
scheduled for delivery later this summer. We will also prepare 
a number of special reports that will examine specific campaign 
effectiveness issues in considerable depth.
    Second, children as young as age 9 will be included in the 
survey.
    Third, each sampled youth will be paired with a parent 
allowing for direct examination of aspects of parent/child 
relations and the collection of family history and other 
background data.
    NSPY data will also be collected using audiovisual, self 
interview computer systems, thereby increasing the reliability 
of the survey and permitting each respondent to view and listen 
to actual campaign messages when being asked exposure 
questions.
    NSPY also includes improved measures of exposure to ONDCP's 
anti-drug messages as well as a richer set of measures of 
beliefs and attitudes sensitive to the specific messages of the 
campaign.
    Finally, three or four interviews will be conducted with 
each youth and parent at approximately yearly intervals. This 
will permit measurement of change in personal attitudes, 
behaviors and other factors, and the application of more 
powerful analytic techniques to determine causal influences.
    With respect to the survey proper, we decided to implement 
an integrated, in-person household-based approach to surveying 
youth and their parents for a variety of reasons including 
response considerations, the ability to conduct longer 
interviews, and the ability to collect year-round data.
    NSPY has a two-phase design where the first phase recruits 
a sample of eligible youth and their parents, and a second 
phase follows them for 2 or 3 additional years. Recruitment is 
broken into three national cross-sectional surveys, or waves, 
that each lasts about 6 months.
    Data collection started in November and we completed the 
first nationally represented recruitment wave at the end of 
May. The second recruitment wave is now underway and the 
followup phase will commence simultaneous with the third 
recruitment wave in January 2001 and continue through June 
2003.
    I will now turn the microphone over to Mr. Hornik who will 
summarize our approach to the measurement of media campaign 
effectiveness.
    [The prepared statement of Mr. Maklan follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.058
    
    [GRAPHIC] [TIFF OMITTED] T2752.059
    
    [GRAPHIC] [TIFF OMITTED] T2752.060
    
    [GRAPHIC] [TIFF OMITTED] T2752.061
    
    [GRAPHIC] [TIFF OMITTED] T2752.062
    
    [GRAPHIC] [TIFF OMITTED] T2752.063
    
    [GRAPHIC] [TIFF OMITTED] T2752.064
    
    [GRAPHIC] [TIFF OMITTED] T2752.065
    
    [GRAPHIC] [TIFF OMITTED] T2752.066
    
    [GRAPHIC] [TIFF OMITTED] T2752.067
    
    [GRAPHIC] [TIFF OMITTED] T2752.068
    
    [GRAPHIC] [TIFF OMITTED] T2752.069
    
    [GRAPHIC] [TIFF OMITTED] T2752.070
    
    [GRAPHIC] [TIFF OMITTED] T2752.071
    
    [GRAPHIC] [TIFF OMITTED] T2752.072
    
    [GRAPHIC] [TIFF OMITTED] T2752.073
    
    [GRAPHIC] [TIFF OMITTED] T2752.074
    
    Mr. Mica. Recognize at this time, Robert Hornik, professor 
with the Annenberg School of Communication. You are recognized, 
sir.
    Mr. Hornik. Our task is to answer four questions. We need 
to say whether the campaign is actually reaching its audience, 
whether there is desirable change in beliefs and outcomes, 
whether we can attribute those changes in beliefs and outcomes 
to the campaign itself, and what else we can learn that will 
help the campaign operate more effectively.
    What are the approaches to answering those four questions? 
First, how do we measure exposure to the campaign's messages? 
As you know, the campaign will publish information about how 
much media time they have purchased for each channel and each 
audience of youth or parents, which they summarize as gross 
rating points.
    Our task is to assess whether those campaign efforts broke 
through into the minds of the audience. Can they recall the ads 
and other messages that were shown. To do that, we really have 
three approaches. The first are fairly traditional, general 
questions about exposure, radio and television, print, movies, 
outdoor advertising and Internet. These measures provide a 
general assessment of exposure but really not a very precise 
one.
    We also measure exposure in a unique and more powerful way. 
We show respondents up to four television ads and up to three 
radio ads at full length on their laptop computers. They 
actually get to see the ads. The ads we show are all ads that 
have been broadcast nationally in the 2-months previous to the 
interview. We ask each respondent to tell us whether or not and 
how often they have seen the ads and how they evaluate them.
    In order to be sure people aren't just claiming to see ads 
when they haven't, we also ask each respondent whether he or 
she has seen an ad that has never been broadcast. That gives us 
a benchmark for true exposure.
    We will also be measuring how the rest of the campaign, not 
only the ad campaign, is reaching audiences. We know the 
campaign is working with national and local organizations and 
corporate partners. It is disseminating information through 
press releases and other public relations technology. To 
capture those efforts, we ask about frequency of exposure to 
antidrug stories on a variety of media channels. We ask about 
the extent to which respondents have heard public discussion of 
several drug issues.
    We ask about the amount of drug talk within families and 
among friends about drug issues. We will see whether the 
intensity of campaign efforts are translating into changes in 
what people hear and what they talk about.
    The second evaluation question we addressed is whether the 
outcomes are moving in the right direction. We measure behavior 
of youth, of course, trial versus regular use of marijuana and 
inhalants primarily with some additional measurement of alcohol 
and tobacco use.
    We measure the beliefs and attitudes that have been shown 
to be related to those behaviors. We measure the perceived 
social pressures to engage in these behaviors. For example, 
what peers are doing, what confidence respondents have in their 
ability to say no to resist drug use, what parents and friends 
would say about drug use.
    We are also measuring the beliefs and behaviors of parents, 
particularly parent/child discussions about drug use and parent 
monitoring of and engagement with their children's lives.
    Our first round of data collection will tell us what these 
beliefs and behaviors are now and in subsequent rounds, we will 
look for change in those outcomes.
    The most difficult task we face is the third one, making a 
clear case that the campaign caused any observed changes. 
Starting at the end of the first year with our report due in 
March 2001, we will report about the association of exposure 
and outcomes. For example, we will report whether the youth who 
report heavy exposure to campaign messages are more likely than 
others to have desirable beliefs about negative mental 
consequences of marijuana use.
    We use a sophisticated statistical technique called 
propensity scoring to increase our confidence that observed 
differences are due to the campaign and not the result of 
outside causes.
    Starting with our report due in March 2002, we will begin 
to supplement these cross sectional causal analyses with 
longitudinal ones. As Dr. Maklan explained, our current survey 
design follows the same national sample of youth and their 
parents for 3 or 4 years. We will know whether a teen's 
trajectory toward or away from drug use is influenced by early 
exposure to messages.
    We will see whether those effects differ depending on the 
characteristics of the youth or depending on the attitudes of 
peers or depending on actions taken by his or her parents. We 
will see whether the effects differ depending on the youth's 
contact with other antidrug institutions--schools, out of 
school programs, religious institutions or general media 
exposure.
    The final category for our research is the help we can 
provide to the ongoing campaign. While our central task is 
evaluation as independent evaluators, we think we will have 
evidence about exposure to advertising and about the link 
between beliefs and behavior that can be exploited to improve 
campaign operations. Later this summer, we will have the first 
of our semiannual reports based on data collected through the 
end of May. It will discuss exposures achieved in the first 
part of phase III based on beliefs and behaviors and the 
relationship to drug use.
    So we think we have a strong evaluation design. We will 
follow the same nationally representative families and their 
children for 3 or 4 years. We will measure exposure ads in a 
unique and powerful way. We will see how the campaign works as 
it complements other forces in children's lives and we will 
have measures of each of the steps in the process from exposure 
to beliefs, to social norms, to skills, to intentions and 
behavior.
    Thank you for your interest. Dr. Maklan and I would be 
pleased to respond to any questions.
    Mr. Mica. I will start with a couple of questions. First, 
Mr. Maklan, how long have you had the contract for evaluation?
    Mr. Maklan. The contract was signed at the end of September 
1998.
    Mr. Mica. What type of compensation or remuneration are the 
terms of the contract?
    Mr. Maklan. The total contract value over the 5-year is 
slightly under $35 million.
    Mr. Mica. Is that entirely Westat?
    Mr. Maklan. Westat and our subcontractors.
    Mr. Mica. You have that for the 5-years and you have been 
in it since September 1998?
    Mr. Maklan. Correct.
    Mr. Mica. You have a subcontractor?
    Mr. Maklan. Our principal subcontractor is the Annenberg 
School.
    Mr. Mica. How long has Annenberg School of Communication 
been a subcontractor?
    Mr. Maklan. They were included in our original proposal 
before the work, so they have been on since day one.
    Mr. Mica. One of the things that concerns me is this 
started in September 1998 and they have been on board since the 
beginning. I have a copy of a memorandum of NDRI, National 
Development Research Institute, progress report for March 2000, 
just a few months ago. It says summary of work and 
accomplishment of significant events, with a special report 
completed in December 1999. NDRI staff was uninvolved in any 
specific work under this contract during February 2000. No 
other work effort was requested by Westat staff. Problems 
encountered and suggested solutions, no problem arose except no 
work requests were obtained from Westat.
    Several months ago I contacted Dr. David Maklan informing 
him one, we had not received ongoing communications regarding 
the status and progress. This had been agreed and had not 
received any information regarding the specific work that would 
be requested from NDRI beyond the December 1999 report.
    We have you all involved in this evaluation, we have a 
subcontractor which you just testified has been on board as 
part of the original proposal. I have a memo that says up 
through March, the subcontractor, at least the ongoing 
communication, status and some of the progress reports, had not 
been collaborated or worked with the subcontractor.
    Mr. Maklan. Mr. Congressman, we put together a team and the 
team members had specific roles. The NDRI was brought on board 
to help us think through the beginning of the design, aspects 
of the design and to help put together the instrument and think 
about some methodological issues.
    The second task they were assigned that they were willing 
and able to pick up was to participate in special analyses I 
mentioned. There are semiannual reports and there are four 
special analyses that could be done under the contract. They 
were brought in to help work on those special analyses after 
the initial design phase. Those special analyses cannot really 
take place in great depth until we have data. The report they 
mentioned is here, has been delivered.
    Mr. Mica. They were part of the contract from the beginning 
and they didn't have work to do until the initial data was 
compiled?
    Mr. Maklan. No, sir. They had two activities. The first 
activity was to participate in the design and the design of the 
questionnaire. They were involved in that quite heavily, both 
their office in New York and their office in North Carolina. 
That phase ended. Their next assignment is going to be 
involvement in the special analyses reports. Only one such 
report has even been specified because the other three cannot 
take place and be specified until further on into the study. 
They did have a major role in that special report which is now 
at ONDCP and NIDA for their review and will be released 
shortly.
    They had a major role. There are three chapters in there 
and they wrote much of the second chapter. After their work on 
that activity was completed, there was no more activity for 
them until we get to another place.
    Mr. Mica. What is their compensation as a subcontractor? 
Mr. Hornik, maybe you could tell us?
    Mr. Hornik. I am not from NDRI, sir.
    Mr. Mica. I know, but what are the terms of the subcontract 
to Annenberg?
    Mr. Hornik. $200,000 a year, about $1 million in total.
    Mr. Mica. One of the questions and problems that has arisen 
is the evaluations from phases I and II produced certain 
information and data. There has been concern expressed about 
the inability to have that baseline transfer over into the 
evaluation in phase III. Is this a real problem? Have we 
evaluation and work from the first two phases that is not 
transferable into this third phase or a data base that doesn't 
match?
    Mr. Maklan. They used a basic school-based methodology to 
collect information from students. As I said in my testimony, 
we did review that, had briefings from ONDCP and NIDA on that 
campaign. The information on the design and strengths and 
weaknesses of the two phases were discussed at the expert 
panels that NIDA put together. So we did learn a lot and NIDA 
learned a lot from those two previous studies.
    It was the feeling of the expert panel and ourselves when 
we put together a proposal for how to do the study that given 
the real objective of phase III was to focus on does this 
campaign specifically impact behavior, attitudes and knowledge 
which was not the principal, detailed focus of the previous two 
phases, they had other objectives in mind, as well as looking 
at that, but ours was to look at that and we needed a 
methodology that was more pointed to that objective.
    Mr. Mica. The baselines of data do not match, right? We 
don't have a comparison from the beginning through this year? 
We will not be able to compare phase I, phase II and phase III?
    Mr. Maklan. That is absolutely correct. You have to 
remember phase I was done in 12 metropolitan areas so it was 
not a nationally representative sample, so you wouldn't want to 
go forward on that to evaluate a whole campaign. That was not 
the purpose of phase I.
    In phase II, they used a school-based approach and there 
were other techniques that improved the objectives we were 
looking for.
    Mr. Mica. The other thing we heard today is measuring the 
success of the program, evaluating the program as far as the 
impacted populations. First of all, with the minority 
population, we still see a lack of effectiveness in the program 
in the minority population, particularly the Hispanics by the 
data presented to the subcommittee.
    The second you heard a lot of focus on is even the scope 
and nature of the drug problem is dramatically changing, since 
1997 or 1998 when we started this. We are now talking about 
meth, designer drugs, substances that weren't even on the 
charts. Are we able to evaluate the effectiveness of the 
program that has been designed to deal with the emerging, 
changing dynamics of the drug problem?
    Mr. Hornik. Part of our evaluation will incorporate data 
that will represent a baseline. That is the material from the 
Monitoring the Future Study, the National Household Survey of 
Drug Abuse, and the survey from the Partnership for a Drug Free 
America. Our goal would be, for things we don't have our own 
measures for from a baseline, to try to capture from those 
surveillance systems where there are changes in terms of drug 
use and certain classes of attitudes and beliefs.
    What we can do that they are unable to do? We have much 
more sophisticated measures of exposure to the campaign. That 
will allow us to try to attribute the specific changes we see 
to the specific campaign's influence.
    The Congresswoman this morning was concerned about the 
claimed 13 percent decline, and asked whether it all comes from 
the program. This design will permit us to try to say not just 
that there is a decline, which is what we can get from the 
existing surveys, but also that the decline is likely due to 
operations of the campaign.
    Mr. Mica. You have to understand our concern and our 
frustration because when we started, we committed a lot of 
money to evaluation of the program. Now, we are told we have a 
different data base baseline in phases I and II of the 
evaluation which can basically be thrown out or starting out in 
phase III and have a new data baseline.
    Once the data is gathered, how long will it take to analyze 
the data and establish a baseline? When can we expect to have 
some solid evaluation of the results of the program?
    Mr. Hornik. In about a month. Our first report will be due 
at the end of August. We are writing it now on the basis of 
data collected through the end of May. That will be powerful in 
terms of describing the levels of exposure to advertising, and 
evaluation of ads. It will also describe existing beliefs and 
behavior.
    In our next report, March 2001, we will begin to talk about 
the association between exposure and outcomes, to what extent 
are the kids who are exposed versus the kids who aren't exposed 
different in their beliefs and behavior, controlling for all 
those outside factors that might be influencing those two 
things.
    Really in two phases, we will have some answer to your 
question. At the end of the summer, we will be talking about 
whether the campaign is reaching the audience and in March we 
will begin to talk about evidence for effects.
    Mr. Maklan. It is important to recognize that ONDCP 
believes, as do a lot of others, that there are many paths to 
changing peoples' attitudes, knowledge and beliefs and these 
paths may take different lengths of time. In terms of assessing 
outcome, some outcomes may happen in a short run for some 
people, and other outcomes will take longer for other people. 
So in terms of assessing the campaign's full impact, Mr. 
McCaffrey mentioned 10 years, we have to finish in 5 years from 
the start of our contract, but we will not know the full impact 
of the campaign over 5 years until that time.
    Back to your second question on the changes and mentioning 
different drugs coming into play and so forth, our job is to 
evaluate the campaign that is out there. To that end, we meet 
and talk on the phone with Oglivy and the other members of Mr. 
McCaffrey's team as to what exactly they are doing, they are 
planning to do in the future and so forth. We work quite 
closely and very intensively with them to be able to determine 
exactly which ads they are going to be running, at what time, 
so we can show our respondents the ads that will be part of 
their campaign. We don't want to evaluate the wrong campaign, 
so we try very hard to keep abreast of whatever they are 
planning to do in the media campaign. That is what we are 
trying to influence.
    We are going to go through revision of our instrument 
because the campaign is making a shift in response to changing 
circumstances and we are going to have to shift a little bit in 
terms of what we are doing to keep abreast of their efforts.
    Mr. Mica. You are in the third year of the contract?
    Mr. Maklan. We are still in the second year.
    Mr. Mica. We expect some initial results based on the new 
evaluation process within the next 30-60 days?
    Mr. Maklan. At the end of August or September.
    Mr. Mica. Then with what frequency will we see evaluations?
    Mr. Maklan. Every 6 months.
    Mr. Mica. The other problem of concern is getting an 
evaluation that really gives us some measure of the 
effectiveness of the ads, any of the programs. We are funding 
most of this, two-thirds of this in ads and other programs. Are 
you involved in anything other than the ad evaluation?
    Mr. Maklan. We are mostly involved in their media campaign 
efforts but I think Bob is a better person to ask.
    Mr. Mica. Could you tell us? Mr. Forbes testified and we 
have had Mr. McCaffrey give us the percent spent on ads and 
media but there is another part of this and there is a 
substantial tens of millions of dollars going into other 
efforts. Are you also evaluating that part of the program?
    Mr. Hornik. Yes, we are in a variety of ways. First, we ask 
each child and adult about their involvement with other 
activities and ask whether they have had any exposure to drug 
education, anti-drug education activities. While the campaign 
isn't creating all of it, we should be able to see whether that 
is changing over time.
    Similarly, we ask about levels of discussion in the home 
about drugs, from the parent's point of view, from the child's 
point of view and to try to see whether that is changing over 
time. One of the ways the program will work, if it works, is by 
creating a change in the public communication environment. How 
much noise there is in the environment about drugs? So we have 
a variety of measures that should be able to be sensitive to 
those changes as well.
    While we are working particularly hard on the ad exposure 
part, we also have a variety of measures that are designed to 
capture the other aspects of the program.
    Mr. Mica. Have you had complications in gathering the 
necessary data to conduct your evaluations, Mr. Maklan?
    Mr. Maklan. I don't know of any large complicated survey 
that doesn't experience some difficulties. Yes, we have learned 
as we have gone along. One of the major problems we hit early 
on was we recruited many interviewers and at about the time we 
were recruiting, with a lot of competition from the Census and 
so forth, so we had to be careful in that effort. We have 
learned from that experience and digested what we have done to 
remain within the available funds.
    Generally, I don't think we have experienced anything that 
in any way will jeopardize our effectiveness to evaluate the 
campaign. We will be collecting data from over 5,000 parents 
and over 7,000 kids multiple times for each of those 
respondents. Our response rates are quite nice, so we are not 
worried about the long run ability to conduct and provide 
useful information to the committee and elsewhere.
    Mr. Mica. Another concern the subcommittee has is there is 
a $35 million price tag to this evaluation over 5 years. It 
sounds like we have done several phases initially and I am sure 
there is some substantial cost and set up. What percentage of 
the contract has already been expended or incumbered?
    Mr. Maklan. I don't have the exact number, sir, but it is 
somewhere around 15 to 18 percent--I am sorry. It is close to 
about 35 percent.
    Mr. Mica. Once the original survey is done and we establish 
the data base, is there any possibility of there being reduced 
costs at the other end or is this already a fixed contract we 
are obligated to?
    Mr. Maklan. In order to accomplish the design and come up 
with the sample size to make any real meaningful statements of 
cause and effect, we are going to need the full resources of 
the contract.
    Mr. Mica. Could you supply the subcommittee with the 
specific amounts that have been expended to date and received 
by Westat and exactly where we are and what you anticipate your 
expenditures to be?
    Mr. Maklan. Yes, I would be glad to.
    Mr. Mica. Mr. Forbes, you have spent a great deal of time 
looking at this whole program as a professional journalist and 
conducted a good deal of investigative reporting. You said 
today that some of the figures that have been given by ONDCP 
about what is spent on media was not what was intended by 
Congress, where most of the money should go. Maybe you could 
tell us where you got the information? I think you said $120 
million of the total going to ad buys. You also felt that the 
major contractor was also taking an inordinate amount for 
administration of the program. Could you elaborate on what you 
think should be done and what is being done?
    Mr. Forbes. Inordinate is your characterization; I simply 
supplied the figures I was confident of. My posture before this 
committee is to adopt the same standards that apply to me as a 
journalist publishing in the national arena. I would feel very 
confident in using these figures in any article I publish, they 
would be independently fact checked by a separate journalist. 
However, people would lose jobs faster than your head would 
spin if I mentioned their names in this committee.
    The $120 million figure was given to me by at least four 
individuals. The figures of $10 million contribution to 
overhead and $8 million for staff salaries at Oglivy has been 
given to me by two individuals with knowledge of this. That is 
the standard for publication. I also felt comfortable with that 
because as I mentioned ONDCP's fiscal year 2000 operating plan, 
of which I have a copy, indicates $21 million for Ogilvy is 
listed as labor/production, nothing to do with purchase of ads. 
That corroborates the basic ballpark figure.
    When I use that $18 million total that was on the low range 
of what I was told. My sources indicated that it may have been 
a couple million higher but I was conservative in my 
estimation.
    Mr. Mica. There also has been a great deal of controversy 
about the match credit. Under the law, we put certain amounts 
of hard Federal dollars in this but we also require a match 
credit. You heard the Director of the Office of Drug Control 
Policy say there are new guidelines. Have you reviewed the 
guidelines? Are these adequate? Are these understandable and do 
you think they will clear up the controversy?
    Mr. Forbes. I have been extremely reluctant to visit the 
ONDCP Web site from my professional computer. I say that not in 
jest. I was aware of the guidelines that were established in 
January as the Washington Post editorial put it, shortly 
thereafter characterizing ONDCP's response, ``No, we have not 
reviewed scripts in advance and by the way, we will not do it 
again.''
    As a journalist, I was quite intrigued to hear Mr. 
McCaffrey's characterization of new guidelines and as soon as I 
can get myself to a service bureau, I certainly will go on 
their Web site. I cannot speak directly to them.
    Mr. Mica. What do you think the impact of this controversy 
has been on participation of the media and also credibility of 
the campaign?
    Mr. Forbes. The participation, certainly ABC has indicated 
they are pulling back. Some of the other networks have 
indicated their distaste for this, the distaste for the 
metaphorical spanking that they were given by the press. 
Magazines have certainly pulled back. You mentioned Ms. 
Bullard's letter, the chief of the USA Today Week End.
    It is a conundrum frankly because of the fact the embedded 
messages in programming are far more effective than 
advertisements. Any ad, however slick, however glamorous, a 
woman destroying a kitchen with a frying pan, is greeted by 
defensive screen. It is well established in the public health 
field that favored characters, modeling behavior, over the 
course of a half hour or a hour long show will actually affect 
behavior.
    On the other hand, the question arises is the public 
comfortable with that, with the government influencing 
television content with financial incentives to that degree? It 
is a conundrum for the American people to decide.
    Mr. Mica. We appreciate your comments to the subcommittee 
and participation. You have provided us with some areas we may 
want to review and some criticism of the program. I don't know 
if you had other areas you wanted to cite at this time to bring 
to the attention of the subcommittee?
    Mr. Forbes. No. I certainly appreciate your attention and 
thank you for the invitation.
    Mr. Mica. I don't want to cut you short. We do have three 
votes on the floor and I do want to thank both Mr. Maklan and 
also Mr. Hornik for their participation. We will also have some 
additional questions from the subcommittee and we have 
requested some data in the hearing today.
    Since we have votes, we will recess the subcommittee for 
lunch for 1 hour and reconvene at 1:15 p.m. I will excuse this 
panel at this time.
    Thank you for your participation and cooperation.
    [Recess.]
    Mr. Souder [presiding]. Our next panel consists of: Renee 
Jones, the program director for the Academy for Boys, along 
with Kevin, Ibn, and Kati.
    Thank you for being patient with us. We had a series of 
votes between 12 noon, and 1 p.m. that scattered us.
    All your testimony will appear in the record in the hearing 
books. I am looking forward to hearing your testimony. Ms. 
Jones.

STATEMENTS OF RENEE JONES, PROGRAM DIRECTOR, ACADEMY FOR BOYS; 
    KEVIN EVANS, YOUNG PERSON, MARYLAND; IBN, YOUNG PERSON, 
         MARYLAND; AND KATI, YOUNG PERSON, ORLANDO, FL

    Ms. Jones. Good afternoon.
    My name is Renee Saunders-Jones, director, Karma Academy 
for Boys. I have been there since 1987.
    I am humbled and honored to speak to you on behalf of my 
program, Karma Academy for Boys, and the National Youth Anti-
Drug Media Campaign.
    Karma Academy is a long-term, residential treatment program 
for adolescent boys between grades 9 and 12. We provide 
treatment from a holistic, therapeutic approach. The residents 
receive therapeutic treatment from trained therapists, receive 
their high school education from Montgomery County teachers who 
come to Karma's facility to teach. As a matter of fact, three 
residents just graduated from high school this past June.
    The residents learn job readiness skills by being 
responsible for all of the household chores, meals, laundry, 
etc., as a group. Every month the residents participate in a 
wilderness challenge program. For example, they just returned 
from a whitewater rafting trip. They go caving, camping, hiking 
and rapelling, to name a few activities.
    The majority of the residents' time is spent in therapeutic 
groups. We have a chemical dependency group, Narcotics 
Anonymous comes every week and present. We also have a juvenile 
sex offender treatment program, confrontation group which deals 
with anger management, psychotherapy groups, groups for 
survivors of sex abuse, survivors of physical abuse, and grief 
recovery. We also facilitate a multifamily group and individual 
family groups every week for the residents and their families.
    The program is confrontational in nature and holds each 
resident responsible for their behavior as well as for their 
fellow residents' behavior. The program has three major 
objectives that each resident must master before they can 
graduate from the program.
    The three components are: each resident must take 
responsibility for their own behavior; each resident must work 
through their family issues and each resident must work toward 
completing their high school education. The parents or 
guardians must participate in the treatment with the youth.
    Karma has been in existence since 1971 and is located in 
Rockville, MD. Since the beginning of Karma, we have worked 
with over 650 young men along with their families. Many of our 
graduates have their own businesses, have served in the armed 
forces and are hard working, tax paying citizens. Our success 
rate is about 35 to 40 percent.
    Many of the youth that come to Karma arrive through the 
court system of the Department of Juvenile Justice. They have 
committed a crime or violated their probation and need a 
comprehensive treatment program that will deter them from 
becoming a hardened juvenile criminal.
    I have witnessed firsthand how illegal drugs have caused 
many youth to feel that it was virtually impossible for them to 
change and have a future. Julian was one such youth. He had 
been on drugs since age 12. He had used alcohol and all types 
of drugs, marijuana, heroin, LSD, cocaine and various other 
types of pills. He was from a middle-class, white family from 
the Eastern Shore.
    When I met him at Karma he was 16. He had been to three 
other treatment programs and was still in need of treatment. He 
was on prescription medication for depression when he was 
admitted to Karma. By the way, none of our residents are on 
prescription medication to control their behavior. Either they 
learn how to control their behavior and express their feelings 
appropriately or they lose the opportunity to work at Karma.
    Julian's parents were discouraged and unwilling to 
participate in our treatment program in the beginning. However, 
I agreed if they would come initially once a month to the 
family meetings, I would admit Julian to the program.
    Julian was not used to working on his issues but he was 
used to getting over on staff and having his own way. He soon 
found out that the longer he fooled around at Karma, the longer 
he would stay at Karma. After almost 4 months of testing our 
program, Julian decided that he didn't need to be on any 
medications. After that decision was approved by the 
psychiatrist, his parents and our staff, Julian began to make 
progress.
    Within 3 months, he was one of the most respected leaders 
among his peers. Julian graduated from Karma in 1999 and 
graduated from high school this past June 2000. It took him 16 
months to complete our program. However, now he has been 
enrolled and accepted to enter the Air Force. He is a new 
person with a new attitude. It took a lot of hard work on 
everyone's part for Julian to become successful.
    Julian's family shared their doubts and fears of him ever 
amounting to anything significant prior to his coming to Karma 
on the night of the graduation with new families. Now they are 
looking forward to his accomplishments and his personal success 
in the Air Force.
    I have observed that youth are motivated to change their 
lives for the following reasons: one, when they see an adult, a 
staff, family member or teacher or mentor genuinely believes 
they have the ability to change; two, when they experience 
success in areas where they have failed; three, when they learn 
how to express their feelings without acting them out in a 
negative manner; four, when they hear from people who tried the 
negative and inappropriate paths of life and failed; and five, 
when they understand there is power and healing in forgiving 
others and in one's self.
    For some youth, I have seen how giving their lives to God 
has helped them to realize they can have a new life regardless 
of the negative actions they had been involved in their past. I 
believe in order for the youth of America to become drug free, 
we as Americans must see each young person as our own. We must 
become willing to reach out and touch their lives in a way that 
will have meaning and impact. Parents must stop working hard 
and long hours and spend time at home with their families.
    Extended family members have to take the time to share 
their live experiences with the younger members of their 
families so that the youth can learn from their experiences. We 
must provide positive activities for the youth so that their 
time will not become idle.
    Last month, I went with the residents to visit a maximum 
security prison in Jessup, MD. The residents participated in 
the Reason Straight Program. The impact of the inmates sharing 
their stories of how and why they were incarcerated for life 
influenced several of the residents at Karma to become more 
diligent and dedicated to working through their treatment 
issues when they returned to the program.
    I believe if the youth of America could hear from reformed 
notorious drug lords like Rafel Edmunds, who is now a 
participant in a program like Reason Straight in a penitentiary 
in Pennsylvania via television media, many youth would think 
twice about becoming a part of that lifestyle.
    I believe that men and women who are incarcerated but who 
have been rehabilitated should be a part of the anti-drug media 
campaign. The most effective media campaign against drugs 
should consist of real graphic facts about the results drugs 
will have on a young person's life in today's world. We must no 
longer take a soft approach in this campaign. We must say it 
loud and say it strong, drugs destroy and they will destroy any 
person who allows the substance to be a part of their 
lifestyle.
    I recommend that funding is made available for cities and 
States to sponsor activities in the communities that would 
appeal to families with children of various ages. Youth need a 
place to go in their community that is safe and drug-free. We 
need to increase the community activity centers in the 
neighborhoods all over America.
    In order to affect change among the youth of America, the 
media campaign to be drug-free must speak to the diverse group 
of American youth.
    I look forward to being of further assistance to you as we 
work together to rid America of drug abuse and drug 
distribution. We must let America know that drugs are tools of 
destruction.
    Thank you for this opportunity to make a difference for my 
country and may God bless America.
    [The prepared statement of Ms. Jones follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.075
    
    [GRAPHIC] [TIFF OMITTED] T2752.076
    
    [GRAPHIC] [TIFF OMITTED] T2752.077
    
    [GRAPHIC] [TIFF OMITTED] T2752.078
    
    Mr. Souder. Thank you very much.
    Your turn, Kevin.
    Mr. Evans. Good morning, Members of Congress.
    My name is Kevin Evans. I am happy and honored to be here 
to speak on behalf of Karma Academy for Boys and the National 
Youth Anti-Drug Media Campaign.
    I have been a resident at Karma Academy for 17\1/2\ months. 
I have been there to receive help and treatment for many issues 
including drug usage and drug distribution. I am here to share 
my views on the media campaign against drugs, what methods I 
think would be beneficial to keep American youth from using 
drugs and how Karma Academy has helped me decide to never sell 
illegal drugs again. While at Karma, I have also developed a 
positive mental attitude to remain drug-free.
    I live in Charles County, MD. My mother is a single parent 
with two children. My mother had struggled financially and I 
decided to help her by selling drugs to purchase food and 
clothing for myself and my sister. I also had a paper route 
which she thought was the method I was using to make money.
    Initially, I did not use drugs, I sold them. I began to use 
drugs because of the problems in my life and peers I hung 
around with. My drug problem affected my family relationship, 
my school and my social interaction with others. I used drugs 
for 3 years. I started when I was 12 years old.
    Yes, I remember the TV ads about just say no to drugs, the 
ad commercial which said this is your brain on drugs and the 
young girl running around smashing things, stating this is what 
drugs will do to you. Those commercials caught my attention 
while I was watching TV but when I had to make a decision as to 
whether I would use drugs, I never thought about those 
commercials.
    I am not saying the commercials weren't good, but that they 
did not impact me strong enough to influence me not to use 
drugs. I think the most effective commercials and 
advertisements against drugs should demonstrate just what drugs 
would do to the human body. I think they should be played on TV 
and videos should be mailed to homes once a month that have 
teenagers.
    I have seen videos like these while at Karma and they made 
a powerful impact on me. The commercials should be relevant to 
today's youth issues and not out of date. I think people who 
are recovering addicts should share their stories about 
negative impacts of drugs on their lives in commercials because 
it is real coming from them.
    I would also like to suggest that more funding go to 
providing recreational centers and activities for teenagers and 
young people in their communities. Many times teens use drugs 
because there is nothing else to do. Teenagers need appropriate 
places to go and hang out and talk with their friends and 
appropriate adults. I believe if there had been a recreation 
center in my community, the drug usage among teenagers would be 
lower. The drug dealers in the community always provided a 
place for teens to hang out but drugs also came along with it.
    While I have been in Karma, I have learned the real facts 
about the negative impacts drugs will have on my life. I have 
also had the opportunity to participate in various wilderness 
activity programs, for example, whitewater rafting, rapelling 
and camping, just to name a few. These are activities that I 
now know and enjoy. The teens in my neighborhood have never had 
these experiences.
    Karma's program allowed my mother and I to rebuild our 
relationship and to learn how to communicate with one another. 
I now know how important it is for teens to be able to talk 
with their parents openly. I am thankful that I had the 
opportunity to come to Karma, although initially for the first 
3 months, I would ask the Director, Renee, to let me go to 
another program where there were girls.
    However, the staff worked with me and never gave up on me 
and now I am about to graduate from the program before the 
summer ends, I hope. I know that programs like Karma make a 
difference in teenagers lives because it made a difference in 
my life. I am now aspiring to become a chef. I look forward to 
my future and to going home a new person.
    Thank you for this opportunity to speak on behalf of my 
country. I want to see America become drug free.
    [The prepared statement of Mr. Evans follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.079
    
    [GRAPHIC] [TIFF OMITTED] T2752.080
    
    [GRAPHIC] [TIFF OMITTED] T2752.081
    
    Mr. Souder. Thank you very much for coming today, Kevin.
    Ibn.
    Mr. Muhammad. Good morning, Congress. My name is Ibn 
Muhammad.
    I am happy to be here to speak on behalf of the Karma 
program and the National Media Campaign against drugs.
    I have been at Karma for over 15 months for issues other 
than drug using or drug selling. I made a choice when I was 15 
years old to not use drugs or sell drugs. In my neighborhood in 
Baltimore, I saw firsthand the bad effects of illegal drugs on 
friends and neighbors that didn't have a job, a place to live 
or food to eat. All they did was hang on the corner using drugs 
and selling drugs.
    I remember the ad on TV using an egg to show what happens 
to your brain when you use drugs. I also remember the ad where 
the young lady slams the frying pan all over the place. These 
ads stood out in my mind as the effect drugs could have on me. 
When I saw the people in the neighborhood using drugs, I 
thought of the TV ads, of the lady with the frying pan and the 
egg.
    My grandfather's use of drugs also had a great impact on me 
not to use drugs. He talked to me often about how bad drugs 
would affect me, my family if I brought them into the house. He 
also talked to me about how drugs would hurt me and destroy my 
future. His words helped me to keep drugs out of my life. I 
think if more parents and grandparents talked to their 
teenagers about the horrible impact drugs would have on them 
and their families, many teenagers would not use drugs.
    I think ads that show how illegal drug use will affect a 
teenager's life would stop a teenager from using drugs. While I 
have been at Karma, my choice to remain drug free became 
stronger. Every week we have a therapeutic group called 
Chemical Dependency Group. The group watches videos and discuss 
how drugs hurt the body and learn firsthand how drug use has 
affected our families in a bad way. We read and discussed 
articles about drugs. Also at Karma every week we hear from 
recovering addicts from Narcotics Anonymous, different people 
who come and share their life stories about using illegal 
drugs.
    All these experiences impact me in a strong way. I know I 
will never use any illegal drug as long as I live. The 
knowledge I have now has made a big positive difference in my 
life.
    I thank you for having this opportunity to speak and to 
make a difference in my country.
    [The prepared statement of Mr. Muhammad follows:]

    [GRAPHIC] [TIFF OMITTED] T2752.082
    
    [GRAPHIC] [TIFF OMITTED] T2752.083
    
    [GRAPHIC] [TIFF OMITTED] T2752.084
    
    Mr. Souder. Thank you very much.
    Kati.
    Ms. Stephenson. Good afternoon, Members of Congress.
    My name is Kati and I am a grateful, recovering addict. I 
always had huge dreams and goals for myself and it never 
involved becoming a drug addict. My life soon became a vicious 
cycle of hospitals, in and out of them, overdosing, jail, 
totaling cars, losing my friends to drug overdoses. My life was 
completely out of control. I didn't know how to stop.
    On May 29, 1999, I was court-ordered to a women's recovery 
home, the Lisa Maryland House in Orlando, FL where I stayed 1 
year and recently graduated. Here, I learned the skills I 
needed to live life. This place saved my life. I feel like I 
literally have a chance to live again and hopefully to help 
someone else from going down the same road I chose.
    This past year, I haven't paid much attention to television 
but I have gotten a chance to view some of the ads recently. I 
honestly don't understand why so much money is being spent on 
this media campaign when it could be spent on a more personal 
approach with the youth, like groups organized of young people 
in recovery who could go around speaking to elementary, middle 
and high schools or it could be used for more treatment 
centers. It seems to me you could spend all this money on 
advertising but if you have no place to place them, then what 
good is it.
    I don't think the drug problem is getting any better. 
People keep getting addicted and dying from this disease 
because there was no help for them. It seems if money went to 
treatment, we would save a lot more lives. I have lost many 
friends to this disease, a lot who died because they had no 
place to go. Over the past few days, I have been able to ask 
around some young people and to get their opinions on some of 
the ads. Not many even knew of them. If they did, they felt the 
ads were very impersonal and very vague, very surface.
    Before I started using drugs, the commercials were pretty 
much a joke to every one around me. When I was actively using, 
I really could have cared less. I truly don't feel the ads are 
persuasive one way or another. I feel the main emphasis should 
be placed on personal contact with the youth and toward 
treatment.
    I strongly, strongly feel that it hasn't been the millions 
of dollars spent on advertising that helped get my attention; 
it was the love, guidance and hope from those who had been 
there before me and their personal efforts to let me know what 
they had to go through. Those are the people who really changed 
my life.
    All I have to offer you is my personal experience. Through 
that, I hope to help save someone else from suffering and going 
down the same path.
    Thank you for listening.
    Mr. Souder. Thank you all for your testimony. I appreciate 
you being patient and also being willing to share the different 
levels of what you have been through. Maybe I can start with 
Kati with a few questions.
    When you were first becoming an addict, did you go through 
any DARE program? Did you go through any kind of program at 
school that was prevention oriented?
    Ms. Stephenson. No, I didn't.
    Mr. Souder. Your school didn't have any. Had you heard 
people talk about why drugs were bad?
    Ms. Stephenson. I can remember a couple of times where they 
had assemblies with the DARE program and stuff but it was maybe 
once a year. It wasn't very involved. I know I didn't get very 
involved in it.
    I grew up not wanting to use drugs. I was against it 
because it had run in my family but when the time came in high 
school, everyone was doing it and I saw they were having fun 
doing it, and I just wanted to have fun and be a part of it.
    Mr. Souder. Treatment isn't a prevention program, treatment 
is a program that once people are addicts, it is one of the 
ways we try to help people recover, although even in a 
successful program like Karma, 35 percent success rate which is 
actually pretty high, most treatment programs have nearly a 90 
percent failure rate. Nevertheless, we put a billion and some 
dollars into treatment because we have to at least try, and 
some people will be very successful. Some of the people who are 
successful may have an occasional relapse but that is still 
different than being an addict. It is still not a prevention 
program.
    What would you do to try to reach people like you who kind 
of knew it was bad but you wanted to try to fit in with your 
peer groups and you didn't see any immediate bad effects, what 
would you do now that you are 22, say you have some kids down 
the road, what would you do as a parent, what would you want 
your school to do?
    Ms. Stephenson. I think the most effective would be people 
who have been through it, younger people that have been through 
it who can reach the kids on an individual level as a peer, not 
like a motherly figure or a counsel, more someone they can 
relate to.
    Mr. Souder. Would you have listened to them at that time? 
If some kid, 22, came back and said, I was messed up, I thought 
it was cool to go to parties and fit in, you would have been 
more likely to listen to someone at 22 than somebody at 50? 
Part of what we are trying to figure out is what really would 
you listen to, not what we think somebody would listen to 
because we are spending real dollars here. Kids are really 
dying in my hometown and around the country. In Orlando, many 
kids died of heroin overdose. You were one who was fortunate 
who didn't.
    It is very hard because young people always think they are 
going to live and it is not going to be them.
    Ms. Stephenson. I totally agree with that. I know at that 
age, I felt invincible but I don't really remember ever seeing 
what really happens to someone who is really overdosing. At 
that age, I don't remember seeing that. That is the only thing 
I can think of, maybe more graphically being shown.
    Mr. Souder. If they had drug tested you at school, what do 
you think that would have done?
    Ms. Stephenson. I know it would have made me think the drug 
problem was being taken a lot more seriously than I think kids 
think now.
    Mr. Souder. A number of schools I have been, about the only 
kids who favor drug testing were kids who had a drug problem 
because they said they might have been caught. The kids who 
don't have a drug problem think drug tests are terrible. Those 
who aren't really wrestling with the problem think they are 
terrible but it lets some kids who really want to avoid it use 
it as an excuse. One of the things you addressed that we hear 
all the time is the social pressure, you want to fit in, you 
want to have a fun time.
    Kevin, both you and Ibn mentioned the egg commercial. What 
did that mean to you? Clearly you had some idea that it wasn't 
good for you, that it would mess up your head but you got 
involved anyway. Did you think it was not going to mess up your 
head?
    Mr. Evans. I didn't go as far as heroin and really hard 
drugs. I was using gateway drugs. If I had continued to use 
drugs, I probably would have been as far as heroin and stuff 
like that. I never used that, and I saw a lot of people use 
those types of drugs and what it did to them but it was just 
the point of rebellious as older people trying to tell me you 
can't use drugs, drugs will do this and this to you. All of the 
younger people were like, drugs are fine. I was going back and 
forth with two different generations. One generation was 
telling me one thing, and the other generation was telling me 
another. I thought the younger generation knew more than the 
older generation so in a way, it made me go to the younger 
generation and use drugs even though I knew some of the stuff 
the older generation was telling me.
    Mr. Souder. My dad once gave my school band instructor a 
plaque that he thought was hilarious and the band instructor 
thought was hilarious but all of us in the band thought it was 
really stupid. It said, ``Why can't all of life's problems come 
when we are young and know all the answers.'' It is not that 
you know more when you are a kid, it is that you don't realize 
what you don't know. As you get older, it gets more frustrating 
rather than less.
    You said the reason you got involved in drugs was to 
provide books, clothes and other things for you and your 
family. You have now been through a program that has told you 
about the evils of drugs. At the same time, that still doesn't 
address necessarily the question of how you had the problem in 
the first place. In other words, your's seemed to be economic. 
Was it that you didn't feel that the risk was as high as what 
your gain was and was this to get better gym shoes and nicer 
clothes? Is that what your orientation was? What would you do 
differently now? How would you tackle the same problem? If you 
were back then, 12 years old, just starting into it, what would 
you do differently?
    You had a paper route and you were trying to earn money?
    Mr. Evans. Yes, I was. Back then, I didn't really like 
depending on people, I didn't like asking people for things 
because I thought it would bring me down, so I did the next 
thing, even though it was wrong, selling drugs. After a while 
of being with the drugs, bagging drugs, you were like, well, 
since I am doing this, let me see what it feels like because 
the people I am giving it to say it is good, so I am going to 
try it just once.
    If I was there now, I would not even deal with drugs, even 
if I seen the good effects--so-called good effects of what 
drugs did to you, I would still not use it because I knew stuff 
now and I have dealt with the problems I was dealing with back 
then.
    I would pretty much depend on other people because I am not 
old enough--now I am old enough to get jobs so I can get a job 
but back then I wasn't old enough to get a job and I would 
pretty much depend on people. I would be the child and not the 
parent.
    Mr. Souder. My youngest son is 12 and then I have a son who 
is 22 and a daughter who is 24. The toughest period is when you 
are 12 to 14 and that is when you are going through a lot of 
changes, you are very impressionable, and it is a very hard age 
for any adults to try to reach young people.
    You said to some degree you felt if you knew how bad things 
were going to be, but at that age, isn't it kind of hard to 
look at it and feel that? You probably had people in your 
community that you saw, guys whose lives didn't amount to much, 
yet it didn't stop you?
    Mr. Evans. No, it didn't stop me. I just wanted to do my 
own thing. I just wanted to do whatever I wanted to do, even 
though I seen all the bad effects of what drugs did to them, 
their families, social life, their whole life. I would ruin 
their whole life from having money, having a nice house to not 
having anything, losing their family members and out on the 
street with nothing. I just pretty much wanted to do my own 
thing.
    Mr. Souder. Ibn said that his grandfather had a big impact 
on him. Did you have any male family members that were an 
example to you anywhere along the line, an uncle, a 
grandfather? One of the problems is finding models to model. 
Did you have any in your community? Is that something that 
would have made a difference?
    Mr. Evans. I have two uncles. One uncle is in the military, 
so I really didn't see him a lot. As I was growing up, I wanted 
to be like him, I wanted to go into the military, I wanted to 
be just like him but after a while, I was I never see him, I 
don't know what he does so he didn't really become a big factor 
in my life.
    My other uncle helped me a lot, he was a good role model 
for me but he had other kids so he was putting more of his time 
on his kids. I just veered off to my older cousins and my older 
cousins were doing the same thing that I was doing after a 
while. So I had a role model, an older man, and he died when I 
turned 11, so that role model was gone and there weren't any 
other role models, so the role models I took were the people 
outside having fun, doing drugs and selling drugs.
    Mr. Souder. Ibn, you said your grandfather had a big role 
and that you were convinced not to use drugs. You went into 
this program when you were 15?
    Mr. Mohammed. I came into the program when I was 16.
    Mr. Souder. You said this solidified your commitment. Do 
you think you would have drifted into drugs if you hadn't gone 
into this program?
    Mr. Mohammed. Yes.
    Mr. Souder. Were you hanging around with people that were 
already kind of troubled and did some of them do drugs?
    Mr. Mohammed. Yes. I was hanging around people that did 
drugs but I thought about it and I was thinking about what my 
grandfather told me too, so that is why I didn't do drugs. My 
grandfather gave me the advice, don't do drugs, and he told me 
the effects if I did drugs. So I took the initiative then, 
don't do no drugs.
    Mr. Souder. Ms. Jones, I wanted to ask you about your 35 
percent success rate. What precisely does that mean, kids who 
after they graduate, haven't gotten in trouble with the law?
    Ms. Jones. Basically what that means is we have tracked for 
a year graduates; because it is real hard to stay in touch with 
families after a year period. We measured that. So what it 
means is that those young people have not become involved in 
the juvenile justice system. They have reported and their 
families have supported their report that they did not get 
involved with drugs again.
    Mr. Souder. The other two-thirds, have they ranged in 
extent of problems and are they drug problems, other problems?
    Ms. Jones. What we found is that the offenders who came 
because of drug using, half went back to using or selling and 
the other half didn't use drugs or sell drugs but had car 
thefts or truancy.
    Mr. Souder. In other words, they might not have wanted to 
get their clothes through drug sales but they got them through 
something else?
    Ms. Jones. Right. What we have been able to ascertain is 
that the message we are putting out, the message we are giving 
them about the ill effects of using and selling drugs has made 
an impact. We have also been able to see the impact of how our 
drug message has helped other siblings in the family, as well 
as the parents. Because sometimes we have parents who come to 
Karma and they have substance abuse issues, maybe not as 
serious, they are minimizing it but we have to address that 
issue also which we haven't factored in the data. But we have 
their report that they have stopped using because we will not 
return a youth to his home where the parents are still 
practicing using drugs or alcohol. So we have been able to 
affect change on that level also.
    When parents take a stand because a child will tell the 
parent, look at you, you are using. You bought me the drugs, 
you helped me and the parent has to face that reality and that 
has happened in several cases in the home where the parent is 
outraged that their son is using and selling but not totally 
looking at the fact they were the door for their son. That has 
really opened the eyes of the parents.
    We have had parents go into treatment while they were first 
in treatment with their son, then they had to come clean with 
us and say, I have to go into treatment, so I will be missing 
for several months because I have the same issue my son has and 
if it wasn't for you, I really wouldn't have addressed my issue 
too.
    Mr. Souder. Do you know what percentage of your success 
rates parents went into treatment?
    Ms. Jones. We didn't have lots but all the ones that 
reported, it is 100 percent, so I would say I have been there 
13 years and I have had about 10 cases like that over the 
course of the 13 years.
    Mr. Souder. Is yours a religious program?
    Ms. Jones. No, it is not. As part of the Department of 
Juvenile Justice, the Comar regulations, it is required of us 
as a program to make church available to them. So we have a 
sign-up sheet if they want to go to church and we have to take 
them to a church. That is part of the State mandate.
    Mr. Souder. Have you seen that kids who make a personal 
commitment are more likely to stay successful?
    Ms. Jones. Yes. I have seen that. Because of the Narcotics 
Anonymous program and the AA which emphasizes the spiritual, 
higher power, that also allows the young people to feel God can 
help them. A lot of the young people have that in their 
background. When they were young, ``my grandmother took me to 
church'' or ``I used to go to church'' and they remember that 
and it triggers those memories. In church, that gives them the 
strength, so I have seen that as an effective tool. A lot of 
the boys' evenings start beginning a relationship with God as a 
result of going to church with their buddy because it is a way 
to get out of the house, it is better than nothing. So they 
will sign up and go to church. It has a positive effect too. I 
have seen that through the course of my time being there that 
some of the boys have made decisions to change their lives and 
have a cleaner, more moral life because of going to church and 
having that available.
    Mr. Souder. How do you address the question that the 
environment you are providing is a relatively artificial 
environment and where they may be thrown back into is such a 
total contrast that it makes the transition difficult? In other 
words, you are providing order; as soon as they leave, they may 
not have order. You talked about going on your wilderness 
trips. You have been able to see that world and now you have 
extra responsibility to try to reach other people. At the same 
time, it is going to be difficult all of a sudden going back to 
an environment that may be tough.
    Ms. Jones. One of the major components of our program is 
the final phase, a transition phase, called phase II. During 
that phase, you have to go back because that is the reality of 
life. You have to reestablish yourself. What I have seen is 
that when the youth go back as Kevin, he is a different person. 
He is not the same person mentally that he was when he came to 
Karma. He has a new attitude, he has a new way of looking at 
things and he realizes that they are going no where and guess 
what, I am going somewhere.
    I have had former residents go back to their community and 
run groups and help their peers because of the skills, the 
tools they have picked up. So when a youth decides inside, and 
that is really where we need to emphasize helping young people 
to realize their strength within themselves, when they realize 
that, it doesn't matter what environment they are in because 
they have the strength within themselves like we do. We might 
have friends all around us doing something inappropriate, but 
we choose not to because of who we are inside ourselves.
    That is what happens for the boys and some of the parents 
have moved. They are able to move, they make plans because they 
realize this environment is horrible. I want him to have a new 
school, a new set of friends, a new opportunity, so they are 
able to move to another community where some parents aren't. 
That is why we really emphasize if you are not changing within, 
you are going to be right back.
    The program is very hard and tough. It is not easy and it 
is long. It is not a quick fix and I think that is one of the 
things we as a country need to look at, the 30 days, the 90 
days, it is not going to work because the issues are so deep, 
they come from a place where the kids aren't able to really let 
it out. Anybody can do 90 days, anybody can do 30 days but to 
really have to stay and deal with issues day in and day out is 
going to be hard and that is when the change comes.
    Mr. Souder. To give the cliche, there is a current song 
that has been out there at least in the last month that love is 
the only answer. Ultimately, it probably is.
    What we are going to try to do in Government and the 
hearing today is focused on particularly the advertising but we 
have had hearings over the last year, at least 35 or 40 
hearings all over the country. I have been down to Orlando 
once, we have had two hearings in Florida, we have been 
literally all over the country, as well as Chairman Mica and I 
have been down to South America five times in the last 5 years.
    On the Education Committee, we are looking at education 
programs, we are looking at treatment programs, we are looking 
at alternative programs, we are looking at school counseling 
programs where kids do the peer counseling with each other. I 
am a big booster of entrepreneurial education. One thing that 
is really clear is almost every person that has dealt drugs 
actually is a mini-businessman. If we can figure out how to get 
you guys into the regular business, every one of you can earn 
money and be a hustler but in a positive way not just in a 
street way.
    I haven't seen kids in any district, whether rural or 
urban, who at 8 and 10 years old who don't have big dreams. 
Somewhere those dreams are getting lost and we need to tap into 
that.
    The question we are asking today is--and you saw the ads 
earlier that were aired--what can we do to reshape the image or 
is there anything in those ads that would really reach you 
before you got involved in the problem. Advertising is pretty 
much wasted once you are in the middle of the problem because 
once you are in the problem, you need shock therapy almost. The 
court gets you and then you get into it or a drug test catches 
you and you are forced to deal with your problem.
    When you are right at the early edges, mixing a little 
alcohol and marijuana, maybe a little something else starting 
with tobacco, it could be a gateway type drug, what at that 
point or before you reach that point, what ad would be able to 
reach you or would anything? Could you comment, each of you on 
the ads we saw earlier today which are only part of the ads?
    Ms. Jones. I think what stood out for me the most about 
those ads, both of them, they were in black and white. We live 
in a color generation. My children refuse to look at anything 
that is in black and white, they say that is the olden days. 
They won't look at it, and I have 14, 11 and 8.
    To give you all the feedback, that has to change because 
children, today's youth, just turn it off, automatically they 
don't look at black and white. They know color. If you put 
those ads in color, those pictures are going to be vivid. The 
brain is going to take a picture and they will see Rodney on 
heroin, see the blood, see that and they will remember that 
because that is today's youth.
    I believe the media probably put it in black and white so 
that it probably wouldn't be so graphic but we live in a 
graphic society. Our youth and children are looking at 
everything the way it really is. That is my first comment on 
that.
    The other comment is with Rodney on Heroin. The message is 
good but the word that we hear is heroin. I don't know if that 
is just for a certain market or all across the country but when 
we talk about teenagers, we are talking about youth who are 
going to start with alcohol and marijuana. If we want to get 
their attention, we need to put together an ad that is going to 
give them that message--alcohol, marijuana, cocaine, crack, 
heroin, LSD. They need to see if you start here, you are going 
to end up here and then the casket.
    So the message is good for Rodney, but it is not going to 
stay with a kid who is at a party and someone brings out a 
joint because they will say, Rodney, heroin, I am all right. I 
am not like Rodney because that is the way these boys think. 
They are concrete. So the ads have to be on the level that the 
youth are on.
    The ad with the young ladies did not hold my attention. It 
was too fast. I really didn't know they were talking about 
drugs because the message is opportunity. No young person is 
looking for opportunity. If we are going to give them a message 
to stay off drugs, we need to give them a message that drugs 
destroy. That is why I emphasize that. They need to have one 
message. If I use drugs, I am destroying myself. If you ask any 
kid in America, do you want to destroy yourself? No. If you use 
drugs, you will. That is going to stick with them and to 
present that in a colorful way is going to stick with a kid of 
any age.
    That is my feedback. I think opportunity is an adult word, 
an adult concept, it is not for today's youth.
    Mr. Souder. Kevin, in looking at the Rodney ad, presumably 
the first ad probably didn't move you a whole lot, in the 
Rodney ad, how would you make that so that it would have 
related to what you saw in your neighborhood that would have 
impacted you? How would you draw the parallel because you are 
looking at it and going I don't want to be like him.
    Mr. Evans. I would have added more drugs to that like all 
the drugs and I would show the true effects of what the drugs 
do to you. Youth these days, if you see someone in the casket, 
well, he is dead, I saw someone dead on the street the other 
day so we want to see what it really does to you, how it 
deteriorates your body and stuff like that. That would have a 
real impact because nowadays video games, a lot of blood, a lot 
of body parts, stuff like that. Younger kids are so involved 
with video games and seeing a lot of blood and body parts and 
other stuff that if you showed the true effects like what it 
does to your liver and what it does to your lungs, your mouth 
and how it eats at your body, would have an impact. People 
would remember that.
    I remember I saw a video at Karma of heroin and how needles 
and all that other stuff. I really don't like needles. Not too 
many young kids like needles either, so I remembered that and I 
remembered one of the men on there was using heroin. He first 
started using heroin and then a year later, he had AIDS, he 
went from 150 pounds to maybe 90 pounds. You could see all his 
bones. I remember that and the needles in the body, how they 
showed him and all the stuff he went through. I remember that 
and it stayed in my mind. That was a good video. I would think 
more graphics and just straight, to the point and not veer off 
with opportunities and stuff like that. Stick straight to what 
drugs will do to you and how it will mess you up.
    Mr. Souder. Ibn, what would you do if you were the ad 
manager and your job was to reach kids 15 years old?
    Mr. Mohammed. I would try to get videos to the house where 
they live and try to convince the parents to tell them to sit 
down and watch the video and watch the effects of drugs and how 
they will end up if they keep on doing drugs and stuff like 
that.
    Mr. Souder. Do you think they would be more convinced if 
they had a bunch of other kids who were 18 or so who said, I 
tried some pot, I didn't think anything was going to happen to 
me and here is what happened because the problem is nobody 
thinks they are going to start with heroin. You don't think 
that would necessarily convince them either?
    Mr. Mohammed. I would try to convince them to stop using 
that, probably show more, as Kevin said, more graphics and 
stuff like that or any other use of drugs. I would try to get a 
counselor or some other person who did drugs and got off of 
drugs, send them to a local rec center or something like that. 
They probably would come down there and talk to them about the 
effect of drugs, how he got on drugs and then made a big 
turnaround and got off it, and became a clean, healthy strong 
man.
    Mr. Souder. Kati, you get the last word. You said earlier 
that you didn't think the ads were very effective and didn't 
know if any ad could be effective. I am interested in your 
comments particularly on the first ad because the theme of that 
seemed to be trying to say women have had lots of opportunities 
and all of a sudden young girls have opportunities that young 
girls didn't have when I was growing up, even before me, so 
don't blow it. That didn't have any impact on you?
    Ms. Stephenson. It was a nice commercial but it was kind of 
like common. There are a lot of commercials out there like the 
Hallmark kind of thing. I think if you are going the commercial 
way, it would have to be something more drastic like they said, 
like with the color.
    I was thinking before I began using I thought of a drug 
user as a heroin junkie. I would never get to that point, so it 
was OK to do the other things. I think on commercials, it was 
always showing the bottom of the bottom, it never really showed 
the whole process. I was in school and I was a cheerleader and 
I was in student government and I didn't think I would end up 
using heroin, but it did happen to me. Maybe if you could make 
the commercials relate more to in my area who are in school and 
are getting addicted just as well as any others.
    Mr. Souder. It is interesting because you are all 
challenging a fundamental assumption and that is we don't like 
to motivate you by positives, we would like to tell you about 
hopes, dreams, say don't rather than just point the finger all 
the time. Most of you are saying, scare us to death. It is an 
interesting panel.
    Ms. Jones. I understand what you are saying because I get 
feedback from the parents. They say, you are too hard, Renee, 
you are scaring them, you don't understand. The boys come to my 
defense and say, she has to say that to us because they realize 
that if I went the route of the parents, I would be just like 
them. That is I guess the message the kids are getting, the 
soft pat on the back messages from a lot of different sources, 
but if we really want to make an impact on them as a country 
through this media campaign, as they are saying, we really need 
to let them know the real truth.
    As you said, the mind is thinking I am invincible. It is 
really not going to happen to me. The truth is, it is going to 
happen to you if you put this in your life. We just went to 
Blake High School in Silver Spring to do a presentation. We 
spoke to over 150 10th graders, did a drug prevention program. 
All of the boys participated and shared their stories. What was 
outstanding for me was the feedback, because we did 
evaluations, which was the kids liked hearing from them rather 
than hearing from me. I did the academic part, this is what 
will happen, see the drug, I had the charts and all that.
    What stood out for the kids was hearing from other boys and 
they asked questions. What happened then, students asked are 
you glad you are in the program, would you rather be home? They 
said, yes, I would rather be home, I wish I didn't do drugs, I 
wish I had made better choices and I saw some eyes click 
because the kids did say yes, I use, I use, they weren't 
ashamed but it did help them to hear from other peers that 
using drugs destroyed my life.
    Mr. Souder. Thank you very much for coming today. I want to 
encourage each of you and all of the young guys who have been 
in the program who have been very attentive here today because 
all of us make mistakes but now you have another chance. You 
have a great chance to have an impact not only on your own life 
but others lives because you have seen what it is like on both 
sides. Many of us didn't get that opportunity and don't 
appreciate it. Now you have a little extra responsibility in 
this country to try to reach others in addition to having the 
great opportunity of a lot of years left in your own lives.
    With that, our hearing now stands adjourned.
    [Whereupon, at 2:20 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2752.085

[GRAPHIC] [TIFF OMITTED] T2752.086

[GRAPHIC] [TIFF OMITTED] T2752.087

[GRAPHIC] [TIFF OMITTED] T2752.088

[GRAPHIC] [TIFF OMITTED] T2752.089

[GRAPHIC] [TIFF OMITTED] T2752.090

[GRAPHIC] [TIFF OMITTED] T2752.091

[GRAPHIC] [TIFF OMITTED] T2752.092

[GRAPHIC] [TIFF OMITTED] T2752.093

[GRAPHIC] [TIFF OMITTED] T2752.094

[GRAPHIC] [TIFF OMITTED] T2752.095

[GRAPHIC] [TIFF OMITTED] T2752.096

[GRAPHIC] [TIFF OMITTED] T2752.097

[GRAPHIC] [TIFF OMITTED] T2752.098

[GRAPHIC] [TIFF OMITTED] T2752.099

[GRAPHIC] [TIFF OMITTED] T2752.100

[GRAPHIC] [TIFF OMITTED] T2752.101

[GRAPHIC] [TIFF OMITTED] T2752.102

[GRAPHIC] [TIFF OMITTED] T2752.103

[GRAPHIC] [TIFF OMITTED] T2752.104

[GRAPHIC] [TIFF OMITTED] T2752.105

[GRAPHIC] [TIFF OMITTED] T2752.106

[GRAPHIC] [TIFF OMITTED] T2752.107

[GRAPHIC] [TIFF OMITTED] T2752.108

[GRAPHIC] [TIFF OMITTED] T2752.109

[GRAPHIC] [TIFF OMITTED] T2752.110

[GRAPHIC] [TIFF OMITTED] T2752.111

[GRAPHIC] [TIFF OMITTED] T2752.112

[GRAPHIC] [TIFF OMITTED] T2752.113

                                  <all>

</pre></body></html>
